<html>
<title> - VOTING RIGHTS AND ELECTION ADMINISTRATION IN OHIO</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



                         
                VOTING RIGHTS AND ELECTION ADMINISTRATION 
                                IN OHIO

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ELECTIONS

                                 OF THE

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             APRIL 25, 2019

                               ----------                              

      Printed for the use of the Committee on House Administration
      
      
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
      


                       Available on the Internet
           https://govinfo.gov/committee/house-administration
           
           
                               __________
           
           
                   U.S. GOVERNMENT PUBLISHING OFFICE
                
38-134                     WASHINGTON: 2019          
           
           
    
    

                            C O N T E N T S

                              ----------                              

                             APRIL 25, 2019

                                                                   Page
Voting Rights and Election Administration in Ohio................     1

                           OPENING STATEMENTS

Chairwoman Marcia L. Fudge.......................................     1
    Prepared statement of Chairwoman Fudge.......................     3
Hon. Rodney Davis, Ranking Member................................     5
    Prepared statement of Ranking Member Davis...................     7

                               WITNESSES

Daniel Ortiz, Outreach Director, Policy Matters Ohio.............    13
    Prepared statement of Mr. Ortiz..............................    16
Elaine Tso, Interim Co-CEO, Asian Services in Action.............    19
    Prepared statement of Ms. Tso................................    21
Tom Roberts, President, Ohio Conference of the NAACP.............    26
    Prepared statement of Mr. Roberts............................    28
Naila Awan, Senior Counsel, Demos................................    44
    Prepared statement of Ms. Awan...............................    46
Inajo D. Chappell, Member, Cuyahoga County Board of Elections....    58
    Prepared statement of Ms. Chappell...........................    61
Mike Brickner, Ohio State Director, All Voting Is Local..........    64
    Prepared statement of Mr. Brickner...........................    66

                       SUBMISSIONS FOR THE RECORD

Hon. Tim Ryan, Representative, 13th District of Ohio, statement..    93
Jen Miller, Executive Director, League of Women Voters of Ohio, 
  statement......................................................    96
Naila Awan, Senior Counsel, Demos, submission....................   102
Rejected: How the Provisional Ballot System in Franklin County, 
  Ohio Fails Voters, All Voting Is Local, report.................   107
Mike Brickner, Ohio State Director, All Voting Is Local, 
  responses to question on Ohio error rate for voter purges, 
  submission.....................................................   123
Inajo D. Chappell, Member, Cuyahoga County Board of Elections, 
  photos of November 2, 2008, voting precinct lines, submission..   126
Ohio Advisory Committee to the U.S. Commission on Civil Rights, 
  Voting Rights in Ohio, Advisory Memorandum of May 2018, 
  submission.....................................................   130




 
           VOTING RIGHTS AND ELECTION ADMINISTRATION IN OHIO

                              ----------                              


                        THURSDAY, APRIL 25, 2019

                          House of Representatives,
                                 Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:05 a.m., 
Cayahoga Community College, Jerry Sue Thornton Center, 2500 E. 
22nd St., Cleveland, Ohio, Hon. Marcia L. Fudge [Chair of the 
Subcommittee] presiding.
    Present: Representatives Fudge, Raskin, Butterfield, Davis 
of Illinois.
    Also Present: Representatives Sewell, Kaptur, Gonzalez, and 
Joyce.
    Staff Present: Jamie Fleet, Staff Director; Khalil Abboud, 
Professional Staff; Eddie Flaherty, Director of Operations; 
Sean Jones, Legislative Clerk; Peter Whippy, Communications 
Director; Veleter Mazyck, Chief of Staff; Mannal Haddad, Press 
Secretary; Cole Felder, Minority General Counsel; Jen Daulby, 
Minority Staff Director; Joy Yunji Lee, Minority Counsel; Jesse 
Roberts, Minority Counsel; Courtney Parella, Minority 
Communications Director.
    Chairwoman Fudge. The Subcommittee on Elections of the 
Committee on House Administration will come to order.
    I would like to thank the Ranking Member, my friend, Mr. 
Davis, Members of the Subcommittee, and my colleagues from the 
House who are with us today, as well as our witnesses and those 
in the audience for being here today. I thank you.
    I ask unanimous consent that all Members have five 
legislative days to revise and extend their remarks and that 
any written statements be made a part of the record.
    Hearing no objection, so ordered.
    I ask unanimous consent that Members not on the 
Subcommittee, Ms. Sewell, Ms. Kaptur, Mr. Gonzalez, and Mr. 
Joyce be allowed to sit on the dais with us today.
    Hearing no objection, so ordered.
    Good morning. I want to welcome my colleagues to Cleveland 
and thank them for coming to the 11th Congressional District of 
Ohio. I am proud to host this hearing. We are here to examine 
the state of voting rights and election administration in Ohio. 
As this Subcommittee continues traveling the country, I can 
think of no better place for our next stop than right here in 
my home State of Ohio.
    America prides herself on being a beacon of democracy, but 
the field hearings we have conducted thus far have shown us a 
simple truth: America has a long way to go. The right to vote 
is sacred, yet over the last decade or more, Ohio has 
transformed from a State that expanded access to the ballot to 
one that is drastically constricting voters' access.
    In 2004, Ohio voters faced such long lines at polling 
locations, some lasting into the next morning, that one court 
found it left voters--and this is their word--effectively 
disenfranchised. In response, Ohio adopted what would become 
known as Golden Week, 35 days of in-person voting, early voting 
that created five days in which voters could register and vote 
at the same time.
    Our progress did not last long. In 2014, the State 
eliminated Golden Week, claiming the change would combat voter 
fraud despite no evidence of widespread fraud. Counties across 
the State are allowed only one early voting location regardless 
of the population. That means there is one polling place for 
more than 1 million people in our most populous counties, the 
same is for our smallest counties.
    In 2014, the former Secretary of State eliminated Sunday 
early voting, except the Sunday before Election Day, and 
evening voting after 5 p.m. Sunday voting days were 
particularly important for African American parishioners and 
Souls to the Polls get-out-the-vote efforts on Sundays.
    Ohio has also implemented voter purging. A 2018 Ohio 
Advisory Committee to the U.S. Commission on Civil Rights 
memorandum stated Ohio is one of the most aggressive States in 
purging voter registrations.
    The list of constant changes to our voting laws goes on. 
These constant changes create confusion for voters. Advocates 
and litigators have been suing Ohio for years over our 
discriminatory voting laws.
    Today, we will hear from people on the front lines of 
ensuring every Ohioan has the unfettered right to vote. Their 
testimony will help as the Congress examines what must be done 
to ensure every eligible voter can exercise his or her 
constitutional right to vote and can exercise that right in any 
chosen election and that the vote will be counted as cast.
    I would now turn to my friend, the Ranking Member, Mr. 
Davis of Illinois, for his opening statement.
    [The statement of Chairwoman Fudge follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Davis. Well, thank you. Thank you, Madam Chairwoman. 
And thank you for reminding me these mics are hot. These mics 
might be hot all day.
    I want to ask the crowd to give a round of applause to 
Chairwoman Fudge for bringing this hearing to Cleveland, Ohio 
today.
    In my six and a half years in Congress, I have made a lot 
of friends, and I can tell you one of the closest friends that 
I have had that I have been able to make is Chairwoman Fudge. 
And to be here in her hometown, it is a privilege for me also, 
and I look forward to hearing the witnesses' testimony.
    I am proud also to be joined by some of my Republican and 
Democratic colleagues. I want to welcome on our side of the 
dais the first guy I ever met when I got elected to Congress 
was my good friend and one of my best friends in the world, 
David Joyce.
    Chairwoman Fudge. And it has been downhill ever since.
    Mr. Davis. David and I met the first day of orientation. We 
have been best buddies since. As a matter of fact, this is my 
fourth visit to Cleveland in the last three years, and I want 
to welcome him. Dave is a leader on our Appropriations 
Committee and does a great job in making sure we get good 
legislation passed in Washington.
    I would also like to welcome one of our newest colleagues, 
Anthony Gonzalez. While I miss his predecessor Jim Renacci, 
more so because I like to beat him in Fantasy Football each 
year, we are very glad to have a new addition to our Republican 
Congressional baseball team in Mr. Gonzalez. As many of you 
know, he used to catch touchdowns from Peyton Manning. I 
certainly expect him to catch fly balls from Cedric Richmond 
this June.
    Madam Chairwoman, I want to say, again, thank you for being 
here. And as the Ranking Member of the House Administration 
Committee, our Committee has an extremely important task to 
conduct oversight of Federal elections.
    Throughout the Committee's existence, Republicans and 
Democrats have worked across the aisle to create significant 
election policy that widely impacted this Nation, including 
legislation to eliminate the poll tax, legislation to create 
easier access to members of the military and their families 
when voting overseas, and the Help America Vote Act of 2002, a 
landmark piece of legislation that took substantial steps to 
remedy problems seen in the 2000 Presidential election.
    The Subcommittee on Elections was created for the primary 
purpose to be an extension of the House Administration 
Committee and enhance our Committee's oversight capabilities of 
Federal elections and how these elections are administered. 
Chairwoman Fudge has been leading our Subcommittee with the 
intention to investigate voting rights issues in order to 
create a new formula that will reauthorize Section 5 of the 
Voting Rights Act.
    The Voting Rights Act, enacted in 1965 for the purpose of 
removing racial-based restrictions on voting has historically 
been a bipartisan effort. This legislation was most recently 
authorized under a Republican President and a Republican 
Congress.
    In 2013, the Supreme Court determined Section 4 of the VRA 
to be unconstitutional in Shelby County v. Holder. Chief 
Justice Roberts said the Voting Rights Act of 1965 employed 
extraordinary measures to address an extraordinary problem. 
While the Court did not weigh in on whether there is still an 
extraordinary problem, the Supreme Court did hold that what 
made sense at one time has lost its relevance. They noted that 
nearly 50 years later, things changed dramatically.
    The VRA primarily remains under the jurisdiction of the 
House Judiciary Committee. The House Administration Committee, 
however, has an obligation to review how elections are 
administered and recognize if any issues should elevate from 
State to Federal level, which is why we are all here today.
    To that end, a particular issue that has brought us here 
today is the Supreme Court ruling in the Husted case. At the 
center of this case is the practice of States performing list 
maintenance of voter registration rules. Ultimately, the Court 
ruled that Ohio's practice was a constitutional method of 
compliance with the National Voter Registration Act.
    Despite efforts to characterize this practice as voter 
purging, we must weigh the benefits to voter list maintenance 
that serves an important role in keeping down election costs, 
minimizing any existing voter confusion, and reducing long 
lines at polling locations.
    As I have said many times since coming into my role as the 
Ranking Member of this Committee, the greatest threat to our 
system is partisanship. If there is clear evidence of 
intentional widespread voter discrimination, Congress should 
take steps to remedy that in a bipartisan manner. We should do 
our due diligence to review the facts and the numbers 
carefully, as well as hear from all stakeholders. What are the 
voting registration trends? What are the voter turnout trends?
    It is essential that Congress make well<dagger>informed 
decisions and understand our role in assisting States and not 
overpowering them. Voting is a fundamental right for every 
American citizen, and protecting that right is the 
responsibility that I and my colleagues on the Republican side 
of the aisle take very seriously.
    Today I am here to listen. We are here to learn more from 
our witnesses about voting rights and election administration. 
I look forward to hearing from both panels. I am very honored 
that you have agreed to share your testimony with all of us 
this morning.
    Thank you, Madam Chairwoman, and I yield back.
    [The statement of Mr. Davis follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairwoman Fudge. Thank you very much.
    I am going to take one quick point of personal privilege 
since I am at home and since I have the mic. I have a number of 
my family members that are here, including my mother. If you 
would all stand, please, all my family.
    Thank you.
    Mr. Davis. Can I say something too?
    Chairwoman Fudge. Yes.
    Mr. Davis. I know my mic is not hot, but her mother came 
here today after a dental visit. She is not supposed to be out, 
so don't ask her to talk much, okay. But, you know, my mom died 
20 years ago today, and she would have been very proud to 
attend a hearing in my hometown. But to have you here, it is an 
honor for every one of us sitting at this dais. Thank you very, 
very much.
    Chairwoman Fudge. Now we will have opening remarks from the 
members of the Committee on House Administration. We will begin 
with Mr. Butterfield of North Carolina.
    Mr. Butterfield. Thank you very much, Madam Chairperson 
Fudge, for your friendship. Thank you very much for bringing 
this field hearing to the people of America.
    When we first organized the Subcommittee, Congresswoman 
Fudge said we are going to have five to seven of these hearings 
across the country, one has to be in Cleveland, and, of course, 
we knew that, and that is the way the Chair operates. But we 
have had these hearings across the country, from North Dakota 
all the way to Brownsville, Texas, and so it is our joy to be 
here today.
    Congresswoman Fudge is a members' member. I don't need to 
make a speech about Marcia Fudge because you know it better 
than I do. She is a great friend and a great leader.
    Our purpose here today--first, let me set the record 
straight--is not a political visit. This is not a political 
rally. This is a very serious Congressional hearing that we are 
conducting.
    Our purpose is to collect evidence across the country, and 
certainly here in Ohio, to substantiate or refute claims of 
voter suppression and disenfranchisement. We are eliciting 
evidence that will inform our debate when we take up the Voting 
Rights Act amendment and legislate to make voting more 
accessible.
    The Voting Rights Act, as we all know, passed Congress in 
1965, days after my high school graduation. The VRA was needed 
to guarantee to African American citizens, particularly in the 
South but not exclusively, the right to vote.
    It eliminated the literacy test. We often forget that, but 
the Voting Rights Act eliminated the literacy test and created 
many effective provisions, the most notable of which are 
Section 2 and Section 5. Section 2 granted minority communities 
a right of action to challenge discriminatory voting election 
systems.
    Though Section 2 litigation is expensive and very time 
consuming, we have used Section 2 through the years to 
dismantle discriminatory barriers. The law is permanent, 
Section 2 is, and it is nationwide. In 1982, a bipartisan 
Congress amended Section 2 and eliminated the intent standard 
as a standard of proof.
    Section 5, by contrast, applied to certain States and parts 
of certain States that had a sorry history of preventing 
African Americans from voting. These covered jurisdictions were 
required to submit voting changes to the Department of Justice 
and demonstrate that the voting change is not discriminatory. 
That is a very expedited way of getting voting changes 
approved. It is free, and the burden is on the submitting 
jurisdiction to prove that it is not discriminatory.
    However, on June 25, 2013, the United States Supreme Court 
in the Shelby case handed down a decision that was devastating. 
Many of us did not fully understand it, but now we do. First, I 
need to set the record straight. It did find--the Shelby 
decision did find Section 5 of the Voting Rights Act to be 
constitutional, but it determined that the formula, Section 4 
we called it, the formula was outdated and in need of 
amendment.
    And so the Court has invited Congress to fix Section 4 and 
adopt a formula to require preclearance in jurisdictions that 
have fallen short using recent and relevant evidence. And we 
have come today to hear the Ohio story because reports are not 
good. The reports that we get about Ohio are not good, to say 
the least. Hopefully, we can craft good, bipartisan legislation 
that will protect the right to vote, not just to African 
Americans or to Latino Americans, but--or Asian Americans, but 
protect the right to vote for every American.
    And I want to thank you Chairwoman for your leadership, 
thank you for your extraordinary leadership on this subject, 
and I look forward to the hearing as we go forward today.
    Since I have 55 seconds remaining, I too want to recognize 
a friend in the audience, Dr. Beverly Armstrong Norman, who is 
a young lady that grew up with me in North Carolina. We grew up 
together many, many years ago. Thank you, Beverly, for coming 
out today.
    Thank you. I yield back.
    Chairwoman Fudge. Thank you.
    Mr. Raskin of Maryland.
    Mr. Raskin. Well, it is a great honor and a great privilege 
to be here in the beautiful 11th District of Ohio, home of our 
beloved Marcia Fudge, the Chair of this Subcommittee, and a 
very distinguished Member of the U.S. House of Representatives.
    And I appreciate Mr. Davis' remarks, and I will try to pick 
up on the bipartisan theme by invoking a great Republican 
President, Abraham Lincoln, who spoke of government of the 
people, by the people, and for the people. And this has been 
the tantalizing, beautiful dream of American democracy.
    It is, of course, not the way that we started. We started 
as a slave republic of white male property owners over the age 
of 21, but it has been through social democratic struggle and 
constitutional and statutory changes that we have opened 
America up.
    You can, in fact, look at our Constitution and the Bill of 
Rights and all the amendments that have followed it as the 
chronicle of the expansion of our democracy. You know, we have 
had only 17 Constitutional amendments since the original Bill 
of Rights. Most of them have dealt with the expansion of the 
suffrage and franchise in attempt to perfect democracy.
    The 15th Amendment eliminated discrimination in voting 
based on race. The 17th Amendment shifted the mode of election 
of U.S. Senators from the State legislatures to the people. The 
19th Amendment gave us women's suffrage. The 23rd Amendment 
said that people in the District of Columbia could vote for 
President. The 24th Amendment abolished poll taxes And the 26th 
Amendment lowered the voting age to 18.
    And then, of course, we have had, as Mr. Butterfield 
reminds us, the Voting Rights Act, which is an important part 
of our work here today to try to repair the damage that was 
visited upon it by a five to four decision of the Supreme Court 
essentially knocking the wind out of the Voting Rights Act by 
striking down the coverage formula which is necessary for the 
preclearance requirement to work.
    Now, I think that we have--we have kind of dueling impulses 
in our society going back to the beginning. On the one hand, 
nothing is more precious and beloved to us than the idea that 
every citizen has the right to vote. And that is the ideal 
embodied in that beautiful phrase, one person, one vote, which 
was the rallying slogan of Bob Moses in the Student Nonviolent 
Coordinating Committee in the civil rights movement in 
Mississippi in the early 1960s when they went at great pains 
and great personal risks to themselves door to door trying to 
register people to vote in--basically in apartheid state.
    And the Supreme Court adopted that language of one person, 
one vote in the one person, one vote cases, Reynolds v. Sims 
and Wesberry v. Sanders. So that is a very deep part of our 
value system. But at the same time, we know that there have 
been recurrent efforts to keep people from voting, to stop 
people from voting even while we have this value, this ideal 
that everybody should have the right to vote, and there have 
been repeated efforts to keep people from voting.
    And, again, this has been a bipartisan thing. It is not one 
party or other. And certainly, our party on our side of the 
aisle has a lot to repent for in terms of what it did in the 
middle of the 20th century in the Southern States. But I am 
proud of the fact that today we are very much the champions of 
giving every single citizen the right to vote and protecting 
that right to vote.
    I happen to think that our--the right to vote is too weak 
because we don't have in our Constitution what most of the 
constitutions of democratic countries around the world have, 
which is a universal affirmative grant of the right to vote to 
everybody. We have these anti-discrimination voting amendments, 
like the 15th Amendment and like the 19th Amendment. You can't 
discriminate against this group, you can't discriminate against 
that group.
    But what we don't have is the affirmative grant of the 
right to everybody to vote and to be represented, which is why 
we have millions of unrepresented people, like people who live 
in Washington, D.C., the only residents of a national capital 
who aren't represented in their own national legislature. We 
have got millions of former prisoners, people who live in the 
territories, Puerto Rico, American Samoa, Guam, and the Virgin 
Islands who can't vote.
    I think we have got some constitutional weakness here and 
from that flows a structural weakness that it is so 
decentralized and fragmented. We have got to look at that as we 
try to repair the Voting Rights Act and move forward to make 
sure that everybody has the right to vote and to participate.
    I yield back. And thank you very much, Madam Chairwoman, 
for convening this in Ohio.
    Chairwoman Fudge. Thank you.
    If you hadn't noticed, Mr. Raskin is a former 
Constitutional law professor. Now you know why all that stuff 
is on the top of his head.
    We are going to begin with our testimony from our 
witnesses. Each witness will have five minutes to give us their 
testimony. You will see a light system. When the light turns 
green, you begin. When it turns yellow, you will have about one 
minute left of testimony. When it turns red, I would ask you to 
please start to wrap up.
    Let me introduce our witnesses for you today. Daniel Ortiz, 
who is the Outreach Director for Policy Matters Ohio. Mr. Ortiz 
joined Policy Matters Ohio in 2016, bringing thirteen years' 
experience in organizing campaign strategy and education.
    Elaine Tso. Is that--did I pronounce it correctly?
    Ms. Tso. Tso.
    Chairwoman Fudge. Tso, okay. Interim Chief Executive 
Officer of Asian Services in Action. In 2015, ASIA, along with 
15 other organizations across the State, launched the very 
first ever new American-focused civic engagement network 
focused on voter registration, voter education, and voter 
turnout.
    Mr. Tom Roberts, President, Ohio Conference of the NAACP. 
Mr. Roberts previously served as a member of the Ohio General 
Assembly where he represented the interest of residents in the 
Dayton, Ohio, area for more than 22 years.
    Mr. Ortiz, you are recognized.

 STATEMENTS OF DANIEL ORTIZ, OUTREACH DIRECTOR, POLICY MATTERS 
  OHIO; ELAINE TSO, INTERIM CO-CHIEF EXECUTIVE OFFICER, ASIAN 
SERVICES IN ACTION; AND TOM ROBERTS, PRESIDENT, OHIO CONFERENCE 
                          OF THE NAACP

                   STATEMENT OF DANIEL ORTIZ

    Mr. Ortiz. Good morning, Chairwoman Fudge, esteemed Members 
of Congress, and staff. Thank you for convening these hearings 
and for the opportunity to testify about voting rights and 
election administration in Ohio.
    My name is Daniel Ortiz. I am the Outreach Director for 
Policy Matters Ohio, a nonprofit, nonpartisan organization 
working for a more vibrant, equitable, sustainable, and 
inclusive Ohio. My experience with elections began when I 
joined my parents when they went door-to-door canvassing for my 
father's first election to city council. Since then, I have 
organized youth with curriculum on the struggle for voting 
rights and worked professionally for political campaigns to 
coordinate voter protection programs.
    The integrity of our elections relies upon broad access to 
the vote, a transparent process to safeguard the integrity of 
the ballot, and straightforward access to the polls. 
Unfortunately, our country has a sad history of making it 
difficult for racial minorities and other groups to vote. The 
2013 ruling of Shelby County v. Holder took away many 
protections, and the loss of preclearance for areas with 
historic voter disenfranchisement has opened a flurry of 
activity to depress voting.
    Reports of obstacles to voting, such as polling location 
closures, voter identification requirements, language access 
problems, mail delivery issues, low voter turnout rates, and 
flexible work schedules and transportation issues are rampant. 
While these challenges are most widespread in States formerly 
protected by the Voting Rights Act, they are alive and real in 
Ohio as well.
    Ohio's struggles are not the same, but they are similar. In 
2016, the legislature and then-Secretary of State Husted 
eliminated Golden Week, the period when citizens could register 
to vote and cast an absentee ballot on the same day. Since 
then, Ohioans have experienced a steady and subtle erosion of 
our voting rights with devastating results.
    In Ohio, the closure of polling locations and consolidation 
of precincts, combined with the lack of reliable transportation 
options and paid time off from work make it hard for many 
vulnerable communities to vote. Since 2012, Ohio has closed 
more than 300 polling locations across the State, a 
disproportionate number in urban areas.
    Reports from the Cuyahoga County Board of Elections show in 
that period there were closures that eliminated 78 polling 
locations in Ohio's second largest county. That obstacle alone 
will sideline many voters, especially those who do not own 
cars.
    For decades, Ohio has underinvested in public transit, 
spending just 63 cents per capita on public transportation, 
ranking 40th among States. This presents an intersection of 
challenges to individuals with disabilities, people of color, 
and low-income people that is reminiscent of past struggles for 
civil rights.
    The 2018 Supreme Court decision of Husted v. A. Phillip 
Randolph Institute made it easier for States to purge voters 
from the voting rolls. I would like to echo the dissenting 
opinion of Justice Sotomayor that Congress crafted the National 
Voter Registration Act of 1993 with the understanding that 
while States are required to make a reasonable effort to remove 
ineligible voters from the registration list, such removal 
programs must be developed in a manner that prevents poor and 
illiterate voters from being caught in a purge system which 
will require them to needlessly re-register and prevents abuse 
which has disparate impact on minority communities.
    Sotomayor goes on to point out that a majority African 
American neighborhood of Cincinnati had 10 percent of their 
voters removed for inactivity compared to only 4 percent of 
voters in suburban neighborhoods.
    Most people who follow campaigns and elections will attest 
to you that you win in the margins. This partisan urge to lock 
in an electoral advantage by manipulating the law will continue 
until there are new laws to stop it.
    In my work to support community voter education 
initiatives, I find that Spanish language resources are often 
lacking and staffing levels are low. Our Nation's current 
atmosphere of fear and intimidation threatens to reduce civic 
participation in the growing Latino electorate. This is 
especially true for Ohio's Latino community and the recent 
arrivals coming from Puerto Rico.
    Puerto Rico is currently in the midst of a migratory wave 
with 5 million people leaving the island between 2006 and 2016, 
and as many as 176,000 people migrating to the mainland United 
States in the one-year aftermath of Hurricane Maria. This will 
likely eclipse the wave of migration that brought my parents to 
Ohio in the 1950s.
    Prior to the hurricane, Ohio's Puerto Rican population 
nearly doubled in size between 2000 and 2017, growing from 
66,000 to just below 125,000. Ohio's Puerto Rican population is 
considerably younger, less educated, and more likely to be poor 
compared to Puerto Ricans on the island or in other States. 
Over 18 percent of Puerto Ricans in Ohio reported speaking 
English less than very well.
    In northeast Ohio, many recent arrivals' biggest concern is 
the struggle to find stable, long-term housing. The instability 
combined with Ohio's system to purge voters is a cause for 
concern for anyone who cares about the voice of the diaspora 
community and would like to see more active participants in our 
democracy.
    Puerto Ricans are U.S. citizens, but differences in Ohio's 
electoral process, coupled with a lack of appropriate cultural 
context in most civic education initiatives, will lead to low 
participation rates.
    Any changes to the Voting Rights Act should reinstate 
preclearance and expand it in their coverage to States like 
Ohio. Voting somewhere near your home, on a major transit line, 
with a ballot in your most familiar language should be the 
norm, not the exception.
    We should be making it easier to vote. Voters should not 
have to worry about what rights they are losing between 
elections, if their early voting period is being cut, whether 
they have been purged from the voter rolls and need to re-
register, if their polling location has been shut down or 
combined, and how far they will have to travel to vote.
    I cannot tell you what the future of the Voting Rights Act 
looks like, but I do ask that you consider what justice looks 
like. Help us bridge the divide. Consider solutions for those 
most burdened people in high poverty with language barriers, 
with low educational attainment, and less experience voting. If 
we make our elections work for them, our county, State, and 
country will be better for it.
    Thank you. And I look forward to answering any questions.
    [The statement of Mr. Ortiz follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairwoman Fudge. Thank you very much.
    Ms. Tso.

                    STATEMENT OF ELAINE TSO

    Ms. Tso. Thank you, Chairwoman Fudge, Ranking Member Davis, 
Committee Members, and staff for the opportunity to speak with 
you today. My name is Elaine Tso. I am the interim co-CEO of 
Asian Services in Action, and I am here today to speak on 
behalf of the community we serve.
    Asian Services in Action, also known by the acronym ASIA, 
provides services to immigrants and refugees in northeast Ohio. 
ASIA was founded in 1995 by four women who saw a need to 
improve the quality of life for Asians and Pacific Islanders in 
northeast Ohio. Today, the organization is the largest Asian 
American and Pacific Islander focused health and social service 
501(c)(3) organization in the State of Ohio.
    Each year, ASIA serves tens of thousands of individuals and 
families at its offices located in Cleveland and Akron, Ohio. 
These services include culturally and linguistically focused 
medical care provided through our Federally Qualified Health 
Centers, as well as wraparound social services so that each 
client is treated holistically according to their individual 
needs.
    ASIA serves some of the most vulnerable members of the 
community, newcomers to this country, who are learning to--
learning how to navigate and adjust to a new environment with 
different rules and unfamiliar procedures. ASIA's mission is to 
reduce barriers and obstacles for new arrivals to this country 
and empower them to contribute to the strengthening and growth 
of America.
    According to a 2018 report from the Ohio Development 
Services Agency, Ohio's Asian American community consists of 
more than 324,000 people. In 2012, ASIA's new American civic 
engagement project began. It was part of an effort to increase 
Asian American/Pacific Islander participation in the 
Presidential election. This work grew into a movement to 
educate and push for civic participation among new American 
communities throughout Ohio and is now known as the ACE 
Network.
    Through the ACE Network, ASIA has supported numerous 
community-based organizations, ethnic groups, and student 
associations to increase voter participation and civic 
engagement within the AAPI community. You know, as voting is 
the foundation of democracy in this country, ASIA strives to 
ensure that new Americans are included in this process.
    Significant investment of resources and collaborative 
effort has been made to increase voter turnout in the State of 
Ohio in the Asian American/Pacific Islander community. This 
year, ASIA is working with 15 diverse partners across the State 
who are organizing at the grassroots level to register and turn 
out new low-propensity voters. In 2018, in partnership with 
members of the ACE Network, ASIA contacted over 36,000 
registered voters across the State.
    For many members of the immigrant and refugee population 
that ASIA serves, the right to vote is a new and unfamiliar 
experience. A refugee, almost by definition, comes from a 
country where the institutions necessary to protect the freedom 
and safety of citizens have failed or have never existed.
    In that context, many of ASIA's clients arrived in this 
country with little understanding of the features of a 
functioning democracy. Some of ASIA's clients have not even 
voted in their countries of origin. So ASIA's civic engagement 
team not only registers new voters, they also educate new 
Americans about the voting process.
    Additionally, some members of the new American community 
have language challenges with limited English proficiency. The 
combination of voting being a new concept for the new American 
community plus a language challenge magnifies the effect of any 
barrier to voting. So frequent changes to election 
administration procedure has a disproportionate effect on new 
Americans.
    Therefore, it is important for the government to consider 
the impact that these challenges have on what should otherwise 
be free, fair, and equitable access to the right to vote. I say 
equitable because what is needed for fair access to voting may 
be different for a new American than for someone who has lived 
in this country for a long time.
    I will stop here because my time is running out, but I will 
welcome any questions.
    [The statement of Ms. Tso follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairwoman Fudge. Thank you very much.
    Mr. Roberts, you are recognized for 5 minutes.

                    STATEMENT OF TOM ROBERTS

    Mr. Roberts. Thank you, Chairwoman Fudge and Ranking Member 
Davis. Thank you for being here in the State of Ohio, the 
Buckeye State. As some of you may know, we often say the road 
to the Presidency comes through the State of Ohio, and for many 
of us that has been true for many, many, many years.
    I, first, want to bring you greetings on behalf of our 
Washington Bureau President, Hilary Shelton, who has dealt with 
many of you at our Nation's capital. As you know, the NAACP was 
founded in 1909. It is our Nation's oldest, largest, most 
rightly recognized grassroots civil rights organization.
    And despite the fact African Americans and other racial and 
ethnic groups are guaranteed the right to vote by the 15th 
Amendment of the U.S. Constitution, States like Ohio are using 
outright intimidation to stop people from casting free, 
unfettered ballots.
    I want to share with you some of what is going on in Ohio. 
There are many other issues I could share with you, but I want 
to take these three because they deal specifically in your role 
as Members of the U.S. Congress, as that is what I was asked to 
share with you.
    The first of one is purging. In 2006, Ohio had 7,860,052 
registered voters. At that time, 416,744 registered voters, 
that is 5.35 percent of those total were removed or deleted 
from the rolls in 2006. The number of voters purged vary 
significantly, range as low as, in your district, Madam 
Chairwoman, 20,353 were removed from the rolls in 1998 and 
1999, in Franklin, Ohio, for failure to vote in the previous 
four years, 170,000 names were removed from the rolls in 
Cuyahoga. Let me flip that. Madam Chairwoman, yours is 170,000. 
Franklin was the 20,000.
    Chairwoman Fudge. Correct.
    Mr. Roberts. The low to the high. All the purging of voters 
was done as part of a so-called annual voter roll maintenance 
process required by what we all thought was a positive law, the 
National Voter Registration Act. The Ohio Secretary of State 
was canceling these registrations.
    The supplemental process targeted voters who did not vote 
in two consecutive Federal elections. Voters purged in the 
process often did not see and often showed up at the polls and 
realized they were not able to vote. This required groups 
like--and some of them are present today--Ohio's A. Phillip 
Randolph Institute to file a lawsuit against the Ohio Secretary 
of State.
    The case ended up in the U.S. Supreme Court. The Supreme 
Court unfortunately ruled on behalf of the Ohio Secretary of 
State. In the end, the U.S. Supreme Court decision allows 
States to treat the fundamental right to vote as a use-it-or-
lose-it right.
    Let me talk about the other one that I think the Chairwoman 
shared. Golden Week was created in 2005 with a newly--with new 
early voting legislation allowed voters to cast absentee 
ballots up to 35 days before the election. This allowed for a 
week of overlapping with a deadline of voter registration. The 
number of people who took advantage of this opportunity was 
considerable.
    During the 2012 general election, approximately 90,000 
people cast votes during Golden Week, which translates to about 
14 percent of the total early voting. Golden Week and early 
voting opportunities have been much debate in the State of Ohio 
and others.
    In 2014, the Ohio House passed Senate Bill 238, which 
eliminated Golden Week, followed by a directive from the 
Secretary of State setting widely early voting hours to be used 
in the forthcoming election. Shortly afterwards, the NAACP, 
with the help of the ACLU, filed a lawsuit against the 
Secretary of State. In 2015, a compromise was reached in which 
Husted agreed to restore some weekend and evening to voting 
hours. This agreement expired when the Secretary of State was 
elected Lieutenant Governor.
    Restrictive legislations. This is the third issue. Since 
2013, members of the Ohio General Assembly have introduced no 
less than nine bills to restrict voting in the State of Ohio.
    Madam Chairwoman, and Members of the committee, I look 
forward to your questions.
    [The statement of Mr. Roberts follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairwoman Fudge. Thank you.
    Just a warning to everyone, we are being live streamed 
nationally, so sometimes the camera is on us and sometimes it 
is on you. So just giving you a heads-up about that.
    With that, we will begin our questioning. And I will move 
to Mr. Butterfield, and I will save my comments until the end.
    Mr. Butterfield, you are recognized for 5 minutes.
    Mr. Butterfield. Thank you again, Madam Chairwoman. You got 
to me pretty quickly.
    First, let me thank the panelists for your testimony today. 
It has been very insightful. And if you didn't get to portions 
of your testimony, it will certainly be included in the record.
    As I said in my opening statement, this is an official 
Congressional hearing, and so your remarks today are officially 
in the record of the House of Representatives and will be used 
as we take up legislation in the upcoming months so thank you 
so very much.
    Let me start off with you, Mr. Ortiz. Your testimony, I 
read a portion of it in my binder and listened to you here 
today. And obviously, you are very hands on, and just thank you 
for your activism.
    As--well, first of all, you said that Section 5 does not 
apply to the State of Ohio, it never has, but Section 2 does. 
Section 2 is nationwide and it gives minority communities the 
right to litigate whenever they feel that their votes are being 
diluted. Have there been instances of Section 2 litigation in 
Ohio?
    Mr. Ortiz. I cannot speak to that.
    Mr. Butterfield. Do any of the others of you--I know NAACP 
and other States has been very active in Section 2 litigation, 
at least the Legal Defense Fund has. Do you know, Mr. Roberts, 
if there has been litigation in Ohio?
    Mr. Roberts. I am not aware of it, but I almost believe 
there was at some point, but I can't speak to it.
    Mr. Butterfield. And to the second panelist?
    Ms. Tso. Yes. I am not aware of any, and that is outside of 
the scope of the work that the Asian Services does. But I would 
be happy to find that information for you.
    Mr. Butterfield. Thank you. Thank you very much.
    And we are not being rude to witnesses when we cut them off 
like this. This is kind of the way we do it. We have 5 minutes 
to cram all of this stuff in, and so don't think we are being 
disrespectful when that happens.
    In reading the material and just watching Ohio politics 
over the years, it seems that there are constant changes in 
your election laws. Nothing is static. Nothing stays the same. 
And it seems to me that--I like to call these second-generation 
barriers anytime you talk about purging voter rolls.
    I mean, I don't even know why it is necessary to purge a 
voting roll. They are not being done by hand. They are being 
done electronically. And so if you have people who just happen 
to be inactive, they may just decide, well, I am not going to 
vote again until I have someone on the ballot that I want to 
vote for. And so they may just choose to sit out for two or 
three elections, and so the voter purge evidence that I have 
heard is very disconcerting.
    Early voting, that seems to be a trend across the country, 
not just in Ohio, but a trend everywhere, because there are 
groups of people in our country who want to suppress votes of 
people who will not likely vote for their political party, 
whether it is the Democratic Party or the Republican Party. I 
mean, this thing can go in either direction.
    But there seems to be a concerted effort on the part of 
groups of people across the country to do very subtle things. 
They are not trying to eliminate the right to vote. They want 
to suppress the right to vote. And so if a purge 
disproportionately affects a minority community versus a 
majority community or an early voting change disproportionately 
affects one community over another, then that is where the 
focus seems to be, and that is what we call voter suppression. 
And it appears to be happening in this great State, and so we 
have got to find a way to level the playing field to make sure 
that all of our voters get an equal opportunity to participate.
    Am I wrong in believing that there have just been constant 
changes in your election laws, Mr. Roberts?
    Mr. Roberts. Chairwoman Fudge, Congressman, you are 
absolutely correct. To date, 270,000 voters have been purged 
from the voting roll. When I mentioned the nine, let me just 
tell you, SB 47 made it difficult for voters to repeal 
unpopular laws. This is the initiative that we are guaranteed 
under the Constitution of Ohio.
    One of my former colleagues in Cincinnati, because the 
polls, I think, opened up late, he got a court to allow an 
extension. Legislation was introduced to attempt to make it 
more difficult to keep these polls open, even though it was a 
technical----
    Mr. Butterfield. Sure.
    Mr. Roberts [continuing]. Reason for that happening.
    Mr. Butterfield. Let me get to my final question then. Do 
you see any emerging issues, voting issues that may be 
surfacing? I know redistricting is right around the corner and 
the census is on the horizon. Do you see any emerging issues 
that we haven't talked about today? Yes.
    Ms. Tso. Well, one issue that I think we didn't talk about 
extensively is there was a bill that the Ohio General Assembly 
considered to reduce the number of poll workers per precinct 
from four to two, and that would disproportionately impact 
anyone who needed additional assistance at the polls, whether 
that is inviting a helper for a limited English proficient 
voter or anyone who needs an accommodation of some sort, 
because that would need some approval from a poll worker.
    Mr. Butterfield. Thank you. That is very helpful.
    I yield back.
    Chairwoman Fudge. Ranking Member Davis.
    Mr. Davis. Thank you, Chairwoman Fudge.
    And thanks again to the witnesses. I enjoyed listening to 
your testimony.
    It is a privilege for me to represent central Illinois. Mr. 
Roberts, Springfield, Illinois, particularly in my district, it 
is the birthplace of the NAACP. We are working to take 
artifacts that were unearthed during a project of the race 
riots of 1908, which began the movement toward the NAACP and 
get those artifacts into the Smithsonian Museum of African 
American History. When we are successful, I hope you can join 
me out there. Thank you for your service, and thanks for your 
testimony.
    I also have a chance to represent part of Abe Lincoln's old 
congressional district, where he served as a member of the Whig 
Party for one term. There is a joke in Illinois that in some 
parts of Illinois Abe probably could still cast a vote. So when 
we are talking about voter maintenance issues, you know, that 
is--I guess we have got to figure out a process, how do you 
move deceased voters from the rolls.
    Voter maintenance, voter list maintenance, Mr. Roberts, is 
a practice used by 44 other States and is required by the 
National Voter Registration Act. And as your testimony and the 
testimony of others have stated, it has been upheld by the U.S. 
Supreme Court.
    Additionally, the State of Ohio has an extremely low error 
rate. It is--the error rate is .001 percent with their 
practices. Yet all three of you are opposed to Ohio's list 
maintenance. Please, how do you square this, Mr. Roberts?
    Mr. Roberts. Thank you, Ranking Member Davis. And let me 
just say, under the leadership of Illinois's president Teresa 
Haley----
    Mr. Davis. Teresa is great.
    Mr. Roberts [continuing]. We have been to Springfield last 
year for a regional meeting, so I am very familiar with your 
artifacts there.
    I think the answer would be it is not the issue of dead 
people because Ohio law is clear on how that is taken care of. 
I think it goes to one of the other comments, and that is, if I 
choose not to vote, there is no way in the world that I should 
be taken off the rolls.
    One of my former colleagues from the House said we should 
have put on the panel ``none of the above,'' because that 
should give me an opportunity to say I don't like that person. 
I think that is not the issue. It is not the dead people. It is 
that I should have the choice to vote or not vote and not be 
removed from the rolls.
    Mr. Davis. Don't you--I mean, Ohio is different than 
Illinois. I am learning too from your testimony about other 
States' practices, but, you know, the State legislature can't 
offer a choice of none of the above. The State legislature can 
offer some additional, you know, opportunities.
    From what I have seen in my research, there have been 
multiple times where the voter list registration and the 
Secretary of State has gone above and beyond to send mailers 
out. Doesn't the voter also have the chance to send that back 
to verify that, hey, I do live here?
    Ms. Tso. If I may, I can speak to just an illustration. 
There are--we are aware of a voter--they were not directly 
counseled by ASIA, but we are aware of a voter who worked in a 
submarine away from his Ohio residence for many months, you 
know, like majority of the year he was working on this 
submarine. The official notice came after a period of 
inactivity, to his residence that he intended to return to 
after his service.
    And it is situations like that where, you know, the period 
of inactivity, having nothing to do with an intention or non-
intention to remain on the roll.
    Mr. Davis. Are you aware of that individual not getting a 
chance to cast a vote?
    Ms. Tso. Yes.
    Mr. Davis. So that individual did not--was not able to 
vote?
    Ms. Tso. They were purged. That individual was purged from 
the roll and then had to re-register.
    Mr. Davis. But was that individual stopped from voting in 
that particular election that you were counseling him on?
    Ms. Tso. We did not counsel this individual. This is 
something that we are aware of, but we----
    Mr. Davis. Do you know whether he was able to vote in a 
future election?
    Ms. Tso. I do not.
    Mr. Davis. Okay. Mr. Ortiz, you mentioned that the national 
trends are that voter turnout is lower. I don't think that 
squares with the facts. I think, you look at this recent 
midterm, voter turnout was at exceptionally high levels. We 
were in North Dakota recently where they have a--they don't 
even have a voting registration system and there was record 
turnout in the midterm election.
    Can you clarify that comment for me?
    Mr. Ortiz. Thank you for the question. I would speak to 
some of the points that you have made. I think when we look at 
the process for purges, I don't disagree that people are given 
opportunities to reply to a postcard. But when we have such 
very quick process to bring people into that pipeline of 
potential purge, depending on how that data gets shared, we 
need to review to see if that is being done equitably, if it is 
being done to where all folks in a county, irregardless of 
which neighborhoods they are living in, are being brought into 
that process.
    And then also, there is some concern that certain 
communities will be intimidated by written correspondence from 
government, and that could be something that they may be less 
likely or inclined to reply to.
    Mr. Davis. Does that--we are going to have government 
mailers from the IRS, Selective Service. You know, are they--if 
they are intimidated, do they not have to respond to those?
    Mr. Ortiz. It is not that they don't have to respond to 
those. I think it is also that we need to have adequate 
services and funding for people to make sure that there is 
clarity in how we are communicating that things are being 
communicated in languages that are going to speak to the folks 
who are receiving those mailers, and that there are staff that 
can answer questions to clarify and dispel myths.
    I think that sometimes the active imagination of what is 
going on in our politics can get the best of us, and many 
people can have a distorted view of what is happening with our 
government. And I think it is upon all of us to help explain 
with a very clear and transparent process how their voices need 
to be heard and they are a part of this process as citizens of 
this country.
    Mr. Davis. I yield back. I don't have any time to yield 
back.
    Chairwoman Fudge. The gentleman's time has expired.
    Mr. Raskin.
    Mr. Raskin. Thank you very much, Madam Chairwoman.
    So, Mr. Roberts, let me start with you. Do people--people 
have a constitutional right to vote, we think, under the Equal 
Protection Clause. Do people have a constitutional right not to 
vote?
    Mr. Roberts. Representative, I think so. I think they have 
a right not to vote.
    Mr. Raskin. Okay. If people have a Constitutional right to 
vote but you throw them off the rolls for not voting, you have 
basically violated their right not to vote by denying their 
right to vote. Right?
    Mr. Roberts. Yes.
    Mr. Raskin. You testified that hundreds of thousands of 
people were purged from the rolls, removed by this statewide 
mechanism. And it is not just a question of some people not 
wanting to vote, not liking the choices. Ohio doesn't make it 
particularly easy to vote, does it?
    I mean, it is not very easy to vote in America generally. 
We don't do it on the weekend. We do it on a weekday. Working 
people have to go to work. They have to drop the kids off at 
school. They have to pick the kids up from school. You have to 
get dinner ready. There is not a lot of time to vote.
    And then, as I understand it, getting testimony that the 
legislature cut early voting days in half, it eliminated the 
requirement that poll workers direct people to the right 
precinct if their precinct place has moved, and the last 
weekend of early voting was eliminated.
    So they are restricting people's ability to go vote. Then 
if they don't vote they use that as a reason to take them off 
of the rolls for the next election. And if they miss the 
postcard or it gets lost in a stack of bills or something, 
tough luck.
    Mr. Davis suggested that the error rate was .01 percent, 
which is remarkable to me, if that is true. I would love to----
    Mr. Davis. .001.
    Mr. Raskin. Say it again?
    Mr. Davis. .001.
    Mr. Raskin. .001. I am reading that to be one in 100,000 
people. They purged 400,000 people and only four people were 
falsely purged? I mean, that is hard--it is hard for me to 
believe, but, I mean, I would love to see some documentation of 
that. It just strikes me as an extraordinary practice, you 
know.
    And Mr. Davis said something I really agreed with at the 
beginning, he said that the principal antagonist to the right 
to vote is partisanship. And, again, that applies across the 
board. There are no clean hands in American history when it 
comes to trying to deprive people of the right to vote based on 
partisanship.
    But, you know, I know of Ohio, it is the pathway to the 
Presidency. It has produced, what, seven Presidents of its own. 
It is a very closely divided State. My beloved friend, Marcy 
Kaptur, keeps me apprised of what is going on in Ohio politics. 
You have got one progressive Democratic Senator. You have got 
one conservative Republican Senator. It is a basically 50/50 
State, but when you look at the congressional delegation, it is 
12 to 4 because it has been so heavily gerrymandered.
    Now, that is not just a Republican problem, because in my 
State, which is a Democratic State, we have got seven Democrats 
and one Republican. I am opposed to gerrymandering across the 
board. That is why I am proud I voted for H.R. 1, which 
eliminates gerrymandering by mandating independent 
redistricting commissions in every State in the country.
    But even if we could live with gerrymandering for a while, 
until we get rid of it, certainly we can't live with the 
gerrymandering of elections by throwing hundreds of thousands 
of people off of the rolls when they have got a right to vote. 
That is a very different kind of thing.
    So what are the efforts in Ohio to stop this practice? What 
is going on? Mr. Ortiz, you are involved in it. Is there any 
hope of ending this practice of these systematic purges of 
voters?
    Mr. Ortiz. I would say that we are going to continue to 
organize. We are going to work with our coalition partners to 
make sure that this is something that we can bring more voice 
to, more awareness to.
    I know that with specific regard to the point on 
gerrymandering, that is also something that Ohio has begun to 
address with ballot initiatives to--and that have passed and 
been successful--to make changes to how we are going to 
redistrict going into 2020 and beyond. But I also think----
    Mr. Raskin. I mean, gerrymandering does look like a really 
important obstacle to full voting rights. If one party, 
whatever it is, the purple party, the red party, if one party 
gets in control, then they can slice the deck in such a way 
that they end up with not a 2 to 1 advantage, a 3 to 1 
advantage in the State's congressional delegation and in the 
State--something like that in the State legislative makeup.
    And then they use that to pass laws that make it more 
difficult for people to vote, not just in their district 
election but statewide election. That is a serious dysfunction 
in the democracy, right?
    So, I don't know, Mr. Roberts, if you would comment on what 
could be done about this.
    Mr. Roberts. NAACP, League of Women Voters, and 
Environmental Council and many others worked together to have 
legislation passed we thought was very progressive 
gerrymandering legislation. The proof is in what happens, in 
2021 what happens. And I think we have passed that legislation. 
We will see what happens.
    Ohio has addressed those issues. And I just want to say 
that the current secretary of state is a little more receptive 
to working with various groups than the previous secretary of 
state.
    Mr. Raskin. I yield back. Thank you very much, Madam 
Chairwoman.
    Chairwoman Fudge. Thank you.
    Mr. Joyce.
    Mr. Joyce. Thank you, Madam Chairwoman. It is an honor to 
be here with you in the county we share.
    Chairwoman Fudge. Yes.
    Mr. Joyce. And while the dean of our delegation, Marcy 
Kaptur as well, as well my friend Anthony, and the rest of our 
members that we welcome aboard. It just goes to show that 
northeastern Ohio, we all work together. And I just have two 
quick questions, and I will defer the rest of my time to 
Representative Davis.
    Mr. Ortiz, if I heard you correctly, you said that there is 
an uptick, if you will, in Hispanic voters. Is it not true that 
Lorain and Cuyahoga County both offer bilingual ballots?
    Mr. Ortiz. That is true.
    Mr. Joyce. Okay. Thank you. I just wanted to clarify that.
    And, Ms. Tso? Tso?
    Ms. Tso. Tso.
    Mr. Joyce. I am sorry. You had brought up the fact that 
there are bills reducing the poll workers from four to two. 
Isn't it a fact that we are having a problem finding poll 
workers that is part of that process, so in order to make sure 
we can run the elections, that if we reduce the number of poll 
workers, we will be allowed to run the election more 
efficiently?
    Ms. Tso. I mean, I think that that is part of the 
infrastructure in the State of Ohio that perhaps needs to be 
enhanced or strengthened. Perhaps if there was additional 
funding for additional poll workers, then it would be able to 
recruit more poll workers. I know that in our community, we 
are--we actively encourage our community members to be poll 
workers.
    Mr. Joyce. I know from my time as a prosecuting attorney 
that it is--that you are about minimum wage for all the work 
that you put in by the time you are through with the day as a 
poll worker, and I know it is really hard to recruit them.
    I defer back to my colleague, Mr. Davis.
    Mr. Davis. Thank you, Mr. Joyce.
    I wanted to give the figures that got us on the .001 error 
rate. The new Secretary of State, Secretary LaRose, sent an 
additional mailing to try and re-register 270,000 that did not 
respond to the voter maintenance list mailer. 540 responded. 
540 people responded.
    When you look at voter turnout, you look at list 
maintenance processes, does--I mean, I asked the question last 
time, how do our local officials abide by the law, abide by the 
Supreme Court decision that was a decision based upon a suit 
filed here in Ohio? What is their choice, and what have they 
done lately?
    I know, Mr. Roberts, you gave us some statistics, but the 
most recent one was 13 years ago, in 2006. And the other 
statistics you gave us were 20 years ago. What about now?
    Mr. Roberts. I think the panel after us will have a lot 
more details because they are dealing with it intimately. I 
think they will have those numbers that they can share with 
you.
    Mr. Davis. I certainly hope so, because statistics from 
2006 and from 1998 and 1999 aren't as relevant today. And I 
would like to, for our knowledge and for the record, understand 
what is happening today.
    And, you know, I am glad you mentioned Secretary LaRose is 
open to working with you. I think his office spent $130,000 to 
send an extra mailer out to get only 540 responses.
    And, Mr. Ortiz, now, I know you didn't clarify about voter 
turnout being--trending lower. I want to give you another 
chance to clarify your comments on low voter turnout when 
clearly the facts are that voter turnout is up nationwide and 
up here in Ohio, even in predominantly minority precincts.
    Mr. Ortiz. Congressman, yes, lower turnout was up in the 
2018 election. I would also say that, you know, to the question 
that you bring and pose on the purges, I think, to the earlier 
point that I made citing Justice Sotomayor, that we need to be 
looking at this and make the reasonable effort that any people 
removed, any ineligible voters, are done so and we develop 
processes that prevent poor and illiterate voters, illiterate 
voters specifically from being caught in this purge system.
    I am familiar with the statistics that you shared on the 
response rates from the mailer from Secretary of State LaRose, 
but I do think that we aren't being mindful of all the 
challenges certain communities that may be receiving this 
mailer face.
    Mr. Davis. Well, again, government mailers come all the 
time. Folks, no matter where they are, what their literacy 
level is, unfortunately don't get a break if they don't respond 
to the IRS. We have seen your local officials send multiple, 
multiple mailers out, and we got a .001 response rate. I think 
the local officials are doing their job. I don't have a lot of 
time left, so I am just going to ask you to raise your hand. 
With the Census coming up, we are going to get an accurate 
count of all the folks that live in each of our States. Raise 
your hand if you think it is okay--raise your hand if you think 
it is okay to have more registered voters in counties than 
people who are counted in the Census.
    Voice. That makes no sense.
    Mr. Davis. It does when you don't maintain your voter lists 
because we have counties in my home State of Illinois that have 
more people registered to vote than were counted in the Census. 
That is a problem. Is that an okay process? Raise your hand if 
you think it is okay. All right. I yield back.
    Chairwoman Fudge. The gentleman's time has expired. Ms. 
Kaptur.
    Ms. Kaptur. Thank you, Madam Chairwoman. And I just want to 
say to those from Ohio here today, we are so proud of Marcia 
Fudge that she has the gavel for this Subcommittee and for the 
country. We are so proud of her. Thank you, Marcia. We know 
through your mother, who, by the way, comes to my Congressional 
district, too, to every meeting, right, how hard she works, as 
well, for the interests of our country and for the greater 
Cleveland and Ohio communities.
    I wanted to offer some perspective. When I was born a few 
years ago, the Nation had 146 million people. We are headed to 
over 325 million now, headed to 350 million, so Ranking Member 
Davis, we thank you for traveling a great distance to be here, 
and all of the members of this Subcommittee, obviously, but it 
is sort of obvious that you are going to have more people 
voting when your population has doubled and tripled, and we 
are--hopefully, we will have more people voting. By 2050, we 
will be up to about 350 million or could be over that as a 
country.
    I think population growth accounts for additional voters, 
and also that we work very hard to register people, but I 
wanted to give some perspective what troubles me about the 
system that has been set in place in Ohio.
    When I was a little girl, we used to be able to walk to the 
precinct, and I would go with our mother. And it is one of my 
precious memories. The PTA would have a cupcake sale, that is 
probably why I went, and mom would hold me up, and in those 
days, we had paper ballots, and I would be able to mark the X 
for her. That is probably why I am in Congress. But I remember 
that she would give the ballot to our neighbor, who was a 
Republican, and he would put it in the box. And I would leave 
there completely perplexed not understanding why our mother 
would do that. And--but voting was very personal. We knew 
everybody at the voting table, the booth workers. They were 
from our neighborhood.
    What has changed so dramatically over the years, even where 
I vote, is that our precinct has now been moved multiple times. 
The street that I live on was sliced right down the middle, and 
I don't think it was by accident. When, unfortunately, a few 
years ago, I was forced to be in a runoff with a Congressman 
from Cleveland named Dennis Kucinich, the mapping that was done 
in Columbus by a legislature controlled by the opposite party, 
drew the line around his house and my house.
    I am trained as a city planner. I pay attention to maps. 
And I thought they have got it down to the granular level. And 
what has happened in the region where I vote, now we have to 
drive to go to the precinct so mothers in my neighborhood and 
fathers can't walk their children to the polls like we used to 
do. There is something fundamentally wrong with that. I 
represent Lorain, Ohio. It has no transit. How are people 
supposed to vote? I hope that this Committee considers how to 
endorse community at the most local level as precinct lines are 
drawn, because what is going on is wrong for our country.
    The other thing that has been happening in Ohio, our booth 
workers are shifted. So rather than someone from my 
neighborhood being hired to work right there, they take someone 
they hire from my neighborhood and put them in a totally 
unfamiliar place. This is amazing. It can't only be happening 
where I live. It has to be happening in thousands of precincts 
across this State. So when we used to walk into the precinct, 
people would know who we were, because they were our 
neighborhood, and, yes, they were Republican, and, yes, they 
were Democrat, but we--it was community. And I think there is 
something really gone afoul in this State that the--we are 
becoming almost faceless in the voting process. I am sure my 
time has expired, but I just want to say----
    Chairwoman Fudge. You get 25 seconds.
    Ms. Kaptur. I have got 25 seconds left. I just think that 
we need local training of booth workers. We need to go back and 
see where people actually live and use the schools as a way of 
measuring that, but don't provide all this disruption to 
people. And in the poorest neighborhoods I represent, I 
guarantee you that in many communities I represent when the 
children come to school in September by the next May, there are 
the same number of children in the school, but two-thirds to 
three-quarters of the children have changed in the lowest-
income communities I represent. They have a right to vote, too.
    And we have to figure out a way to deal with our 
provisional ballot situation much more efficiently, and we have 
to have people in those precincts who know the neighborhoods. 
Thank you so very much, Madam Chairwoman.
    Chairwoman Fudge. Thank you. Our newest member of our 
delegation, Mr. Gonzalez.
    Mr. Gonzalez. First, I want to thank Chairwoman Fudge, my 
new friend, for bringing this hearing to Cleveland, Ranking 
Member Davis, Tri-C for hosting us today and everybody for 
being here. Additionally, I would like to thank all the 
witnesses for taking the time to be here and discuss this 
important issue. The opportunity to participate in democracy by 
casting a ballot is one of the most important and fundamental 
rights in this country. My grandparents fled Communist Cuba and 
the Castro regime because they believed in the strength of our 
values and the strength of our Constitution. The belief in the 
right to vote, after watching what happens to a country when 
that right does not exist, was central to the inspiration that 
led them to our great Nation and is, frankly, why I am sitting 
in this chair.
    Just recently, I had the opportunity to participate in a 
civil rights pilgrimage in Alabama, led by the legendary Rep. 
John Lewis. There have been few experiences in my life that 
have been as impactful as seeing this painful part of our 
history through his eyes as he and his civil rights brothers 
and sisters fought to gain the promises enshrined in our 
founding documents.
    America's democracy is healthy and strong when everyone who 
has the right to vote uses that right freely and securely. Ohio 
has had a storied history in Federal elections as a swing 
State, often playing a major role in determining the winner in 
Presidential elections.
    I was glad to see my friend, Frank LaRose, elected to the 
Secretary of State position last November to take over as chief 
election officer in Ohio. I believe that it is worth noting 
that this past election set a record for the highest turnout in 
a midterm in the history of our State. We have never had more 
voters.
    As a State legislator, Frank led the fight on reforming our 
redistricting process, and to expand registration options to 
include online registration. Just yesterday, he announced a 
bipartisan initiative to ensure that when a citizen updates 
their information at the State in one place, say, on tax 
filings, that the new address will be automatically transferred 
to the Secretary of State's Office as well, for updating the 
voter rolls. This will ensure that more people are kept on the 
rolls and being properly counted.
    While I recognize that there is always room for 
improvement, I would like to highlight several aspects of the 
Ohio election system that I feel are particularly strong. At 28 
days, Ohio currently offers one of the longest early voting 
periods in the Nation, providing flexibility to voters who are 
unable to vote on Election Day. This even includes early voting 
on weekends.
    Additionally, Ohio has no-excuse absentee ballot voting, 
meaning that voters are able to vote absentee, even without a 
stated reason. It is not the practice across the country. 
Practices like this encourage participation in our democracy, 
and I am proud that Ohio has been an example for other States 
who currently have not enacted these policies.
    In turning to questions, I just have a couple, and then I 
will turn it back over to Mr. Davis if we have time. Mr. Ortiz, 
I want to get back to something you said, which is that voter 
suppression reduced the vote in the Latino community in the 
previous election. Can you share the data with that 
specifically?
    Mr. Ortiz. So, Congressman, thank you for the question. I 
would say that there is a number of data sources that I can 
share after this and follow up, but I will also say, I 
appreciate hearing your story, and I think as a child of 
immigrants, you know, you can appreciate that right now, the 
atmosphere in our country is particularly challenging. Just 
earlier this week, the Supreme Court heard oral arguments 
talking about the Voting Rights Act as it relates to this 
upcoming Census and addition of a citizenship question.
    Many advocates across the country are united in thinking 
that this is going to produce a depressed count, and when 
everyone doesn't count on the Census, that turns all sorts of 
data that is reliable that everyone uses, regardless of what 
side of the aisle, whether you are working in business or for 
the public good, we all rely on that data. So with that as a 
prospect on the horizon, and forming the mood of specific folks 
in the Latino community who may not have the same experience 
that you had, but who may be the descendants of immigrants that 
feel intimidated, it could provide a shift in how folks view 
communications from government. So I do think that it is 
something that we need to be mindful of on how that can be a 
disruption for all sorts of things, including appropriations.
    Mr. Gonzalez. I don't mean to interrupt. My time is going 
to expire in a second.
    Mr. Ortiz. Okay.
    Mr. Gonzalez. Just to verify just really quickly, the claim 
that Latino turnout was down as a result of voter suppression, 
do you have the data source for that specific claim?
    Mr. Ortiz. I will follow up with additional data sources.
    Mr. Gonzalez. Please. I look forward to that, and I yield 
back.
    Chairwoman Fudge. Thank you very much. And last, but 
certainly not least, my colleague that represents not only 
Shelby County but Selma, Alabama, Terri Sewell from Alabama.
    Ms. Sewell. Thank you so much, Madam Chairwoman. I want to 
thank everyone for participating in today's field hearing, 
including our extraordinary panelists who have committed 
themselves to the great work of making sure that our civil 
rights and our voting rights for every American is ensured. I 
would also like to thank all my colleagues on the House 
Administration Committee, the Subcommittee on Elections, for 
allowing me to be here today, even though I am not on the 
Committee. Especially Chairwoman Marcia Fudge, for her 
leadership on the issue of voting rights.
    I am the chief sponsor of H.R. 4. And H.R. 4, the Voting 
Rights Advancement Act, is a seminal piece of legislation, 
which seeks to restore Section 4 of the Voting Rights Act of 
1965. I have the great honor of not only representing Alabama's 
Seventh Congressional District, which includes Birmingham, 
Montgomery, Tuscaloosa, and my home town of Selma, Alabama.
    I know that people in my district bled, fought, prayed, 
marched, and many died for the right to vote for all Americans 
in this great Nation. It is important to me, and I know it is 
important to all the panelists here today, as well as to my 
colleagues on the dais, that we get to the bottom of why it is 
that people are not voting in the numbers they should be 
voting.
    The reality is that we live in a society where, human 
nature being human nature, we realize that by restricting the 
opportunity to vote to some people in this society, we actually 
can change elections. That is just a fact. Now what do we do 
about that fact? I think it is important that we realize that 
the fundamental base of our democracy is the right to vote. 
Also, the right not to vote. But it is important that we 
realize that you don't lose that right to vote simply by not 
voting.
    I think that there are several myths here that I would like 
to challenge. The first myth is just because you have higher 
turnout and higher voter registration doesn't mean that we 
don't have voter suppression. Let me repeat that. As Rep. Marcy 
Kaptur so eloquently said, she knows more about the population 
in Ohio than I do, the population of Ohio has grown 
exponentially, so you would think that the number of people 
voting, registering to vote, turning out to vote, would also 
increase. But that, nevertheless, doesn't invalidate the fact 
that in certain vulnerable communities, it is harder to vote.
    What do I mean by that? You know, just because we no longer 
have to count how many marbles are in a jar, or if you saw the 
movie Selma, recite how many counties, all 67 counties in order 
to register to vote, doesn't mean that State legislatures 
across this country are not imposing harder barriers for people 
to vote.
    In North Dakota, this Subcommittee was just there, instead 
of allowing people to register to vote by any mailing address 
that they have, the State legislature imposed a physical 
address requirement. It should not be surprising to you, 
although I am sure it was not intentional by that legislature, 
that tribal lands and those Native Americans that live on 
tribal lands often vote by P.O. Box, not physical address.
    Now, I am sure that the State of North Dakota's voter rolls 
are much higher than they were in the 1960s. I am sure that the 
State of North Dakota's voter registrations are higher than 
they were in the 1960s, probably record high, since their 
population has grown. But that, nevertheless, does not 
invalidate the fact that only by looking at physical addresses 
to be able to register to vote in that State doesn't cause 
voter suppression.
    Let's be clear. We should be, especially as elected 
officials, all about making sure that it is easier for people 
to vote, not harder for people to vote. I think of my own 
State, the State of Alabama, where my dad, who recently passed, 
he was able to vote the latter part of his years after a 
massive stroke by a validly issued Federal ID called a Social 
Security card. But after the Shelby decision, it just so 
happens that the State of Alabama State legislature changed the 
requirements of what is required in order to go and vote.
    The ID that you can show now does not include a Federal ID 
called a Social Security card. Rather, now it includes a much 
more limited number of IDs. I find it to be really hard to 
believe that you don't--you can't show a University of Alabama 
ID, but you can show a hunting license ID and go and vote. The 
State of Alabama is picking and choosing who should vote. They 
are prioritizing hunters over students, and it is wrong.
    So I want to thank this Committee for allowing us to see, 
in real time, and go out in the field and talk to constituents, 
talk to voters, nonvoters, those who wish they could vote 
because they don't have transportation. We have to think about 
all the reasons why people don't vote, and we should be 
encouraging that instead of limiting access to the polls. Thank 
you, Madam Chair, for the opportunity to participate today.
    [Applause.]
    Chairwoman Fudge. I want to thank this first panel, and I 
want to thank all my colleagues, as well. And I just want to 
wrap up by saying a few things. We are as segregated and 
separated in this country today as we were in 1968. Our schools 
are more segregated; our neighborhoods are more segregated. And 
so, I think it is important that we understand what is 
happening in this country today.
    And I think that when Chief Justice Roberts wrote his 
opinion in Shelby, the things that he said that I agree with, 
is that there is still discrimination in this country. What he 
said was that the information and the data that we had was old. 
He said there are still places that need to be precleared, but 
we need contemporaneous new data. That is what we are doing 
here today and around the country is collecting the data. He 
did not believe for a minute that everybody is treated fairly 
in this country and that the right to vote is the same for 
everybody in this country. He is a Supreme Court Justice. I 
agree with him on that, that there is still discrimination and 
we need to address it.
    You know, it is interesting that we talk about the numbers 
of people voting. Because we vote in spite of difficulties 
doesn't make those difficulties right. I mean, just because the 
bar is raised, and we have to find a way to jump over it, it 
doesn't make it right that we go to Standing Rock a week ago, 
and they tell us that they are voting at chicken coops, that we 
go to Brownsville, Texas, and they tell us that they are voting 
in police stations knowing that the people who live in those 
communities are afraid of the police.
    It doesn't make a difference when we talk about all the 
things that--and I happen to like LaRose, so I am really 
pleased that he is the Secretary of State, but the former one, 
the former one, you know, he would send us postcards that look 
like junk mail. Who looks at that? That is the first thing. It 
looks like junk mail.
    The second thing is that he would believe that we should do 
everybody--treat everybody the same. Now, in theory, that makes 
some sense, except for that if I live in a county with one 
million people, and I have one place to vote with 30 parking 
spaces, and somebody that lives in a county with 5,000 people 
has one place to vote with 30 parking spaces, is that fair to 
me? Absolutely not. Equity and fairness are two very different 
things. And we have to understand the difference.
    Also, the poor are disproportionately hurt, because poor 
people move more, so they don't get the junk mail. We don't 
have permanent housing. And if you look at places like Standing 
Rock, where most people do not drive, what do you need a 
driver's license for? What do they need a particular ID for? So 
when we make them go and get one, it is a poll tax. If we make 
them go and buy a $15 ID, it is a poll tax, that is exactly 
what it is. And so, I think it is important that we understand 
what we are doing in the name of democracy. We will support 
democracy in Venezuela, in Russia, in China, every place but 
here.
    We should be making the franchise open to everyone as 
opposed to trying to make it more difficult for people to vote. 
And every time we change the rules, which we do in every single 
election, we make it more difficult for people to vote. If you 
are confused about what day you can vote it is suppressing your 
vote.
    Now, is it incumbent upon us to know the rules? Yes, it is. 
But I would suggest to you that as elected officials, it is our 
responsibility to make sure that every American feels that they 
have the unfettered, unabridged right to vote. We should not 
say because you didn't vote today, I am not going to let you 
vote next week. The Constitution says you have a right to vote. 
It doesn't say if you don't vote, I am going to take it from 
you.
    So let's talk about what the Constitution says. Jamie, I am 
not a constitutional lawyer, but I know a little bit about it. 
The Constitution gives us the right to vote, and if we are 
going to be the kind of Americans we say we are, then America 
needs to live up to its promise, and Ohio needs to live up to 
its promise, and that is to be sure that everyone who is 
qualified and wishes to vote can vote.
    I thank you all so very, very much for your testimony.
    [Applause.]
    Chairwoman Fudge. Guys, you can tell I am at home. We thank 
you, and if the next set of witnesses would please join us. 
Thank you all so much. Oh, you know what, let me do this while 
they are getting up. There are a number of elected officials, 
judges, council people. I saw the majority leader of city 
council. Just all the elected officials just stand up, would 
you please? The State Department of Education, it is a lot of 
people here. Thank you all so much for being here, thank you, 
thank you, thank you.
    [Applause.]
    [Recess.]
    Chairwoman Fudge. We are ready to begin our second panel. 
We are going begin, and we will just let Mr. Brickner join us 
when he returns. Okay. We are prepared to begin, so we would 
start today with--oh, let me introduce the witnesses. Naila 
Awan is the Senior Counsel at Demos. Naila is a civil and human 
rights lawyer, who joined Demos in 2015. She serves as local 
counsel in the A. Philip Randolph Institute v. LaRose case, 
challenging Ohio's practice of and procedures for purging 
infrequent voters from the registration rolls; and Mays v. 
LaRose, a case challenging Ohio's practice of denying eligible 
voters detained in the days preceding an election from 
accessing absentee ballots in jails.
    Inajo Davis Chappell, a member of the Cuyahoga Board of 
Elections. She was appointed in April 2007. She is a partner at 
Ulmer Berne in Cleveland where she chairs the firm's nonprofit 
group.
    Mike Brickner, Ohio State Director, All Voting is Local, a 
new campaign that seeks to work proactively to expand access to 
the ballot. Prior to joining AVL, Mike worked at the ACLU of 
Ohio for 14 years, most recently serving as its Senior Policy 
Director. Ms. Awan, you are recognized for 5 minutes.

   STATEMENTS OF NAILA AWAN, SENIOR COUNSEL, DEMOS; INAJO D. 
CHAPPELL, MEMBER, CUYAHOGA COUNTY BOARD OF ELECTIONS; AND MIKE 
       BRICKNER, OHIO STATE DIRECTOR, ALL VOTING IS LOCAL

                    STATEMENT OF NAILA AWAN

    Ms. Awan. Thank you, Chairwoman Fudge, Ranking Member 
Davis, and to all the Committee members for the invitation to 
testify today. My name is Naila Awan, and I am senior counsel 
at Demos, a think and do tank that powers the movement for a 
just inclusive multiracial democracy. My testimony will focus 
on two voter suppression issues that Demos has been actively 
combating in Ohio. I will discuss Ohio's controversial practice 
of targeting voters for removal from the registration rolls 
simply because they could not or chose not to vote, as well as 
Ohio's restriction on absentee voting in jails.
    An Ohio purge procedure, known as the supplemental process, 
treats the right to vote as a use it or lose it right. Under 
this process, Ohio uses an individual's failure to vote over a 
two-year period as an indicator that they have moved. It sends 
such registrants a confirmation card and then removes them from 
the voter rolls if they do not respond to the card or vote in 
the subsequent 4-year period. Representing the Ohio A. Philip 
Randolph Institute, the Northeast Ohio Coalition for the 
Homeless, and Larry Harmon, a long-time Ohio resident and 
military veteran who was purged under the supplemental process, 
Demos and the ACLU of Ohio brought a lawsuit in 2016 
challenging Ohio's supplemental process on two grounds: First, 
that the use of nonvoting to initiate a purge practice violated 
the national Voter Registration Act; and second, that the 
confirmation card Ohio sent to voters targeted for removal 
under the process did not satisfy the informational 
requirements set forth in the NVRA.
    Last year, in Husted v. A. Phillip Randolph Institute, the 
U.S. Supreme Court considered the first of these two claims, 
and determined that Ohio was not violating the NVRA by 
targeting voters for removal, based only on their failure to 
vote. However, that does not make the supplemental process wise 
or right. A brief filed by 36 current and former Ohio election 
officials recognized that the supplemental process ultimately 
results in the disenfranchisement of thousands of Ohioans, 
undermines the ability to maintain up to date and accurate 
voter rolls, and other more targeted roll maintenance practices 
could be adopted without disenfranchising duly registered 
Ohioans.
    Further, the Supreme Court's decision did not consider the 
constitutionality of Ohio's purge practice or whether it 
unlawfully discriminates on the basis of race. In her dissent, 
Justice Sotomayor did recognize that barriers to the ballot box 
that are experienced by communities whose voices have been 
traditionally marginalized through the political process render 
them particularly vulnerable to unwarranted removal under the 
supplemental process.
    Time and again, Ohioans across the State show up to vote 
only to be told at the polls that their names are no longer on 
the voter registration rolls. We were able to secure court-
ordered relief, commonly referred to as the APRI exception on 
our first claim for the November 2016 general election. This 
relief allowed over 7,500 eligible voters in Ohio to 
participate in 2016 who would have otherwise been 
disenfranchised, and the exception has remained in place for 
each Ohio election since that time.
    Even after last year's Supreme Court decision, the Sixth 
Circuit determined that the APRI exception should remain in 
place in November 2018 to provide relief for purged voters who 
likely received insufficient notice.
    We are concerned that Ohio continues to use the 
supplemental process and that the availability of relief to 
prevent the disenfranchisement of voters who are unlawfully and 
illegitimately purged remains in question.
    A different voting problem that Demos is currently engaged 
in within Ohio is that registered voters who are arrested and 
held in jails after the absentee ballot request deadline and 
detained through Election Day, are prevented from obtaining and 
casting an absentee ballot, despite remaining completely 
eligible under Ohio law.
    On November 6, 2018, Demos Campaign Legal Center in 
MacArthur Justice Center filed a class action lawsuit on behalf 
of two voters who were detained on misdemeanor charges after 
the time when they could request absentee ballots, and 
approximately 1,000 similarly situated voters who were impacted 
in each election, challenging as unconstitutional the State's 
practice of locking these late jailed voters out of the 
political process. A Federal judge in the Southern District of 
Ohio issued a temporary restraining order requiring that Ohio 
deliver ballots to our named clients and count their votes, 
finding that our clients would likely succeed on their claim, 
have the right to vote, and no mechanism by which to do so.
    This and other barriers to voting, such as the topic some 
of my fellow panelists are addressing, make it more difficult 
for Ohioans, particularly those traditionally marginalized in 
our democracy to cast a ballot. We at Demos look forward to 
working with this Committee to increase access to the ballot 
and better protect the right to vote.
    [The statement of Ms. Awan follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairwoman Fudge. Thank you. Ms. Davis Chappell, you are 
recognized for 5 minutes.

               STATEMENT OF INAJO DAVIS CHAPPELL

    Ms. Chappell. Thank you, Honorable Marcia Fudge, 
Chairperson of the Subcommittee on Elections, for this 
opportunity today and the invitation to be here. Thanks also to 
the Elections Subcommittee Members, Butterfield and Davis, and 
all the distinguished Members of the United States House of 
Representatives who are present.
    I am currently a member of the Cuyahoga County Board of 
Elections, where I have had the privilege of serving as a board 
member since 2007, and as immediate past board chair for the 
last 6 years. I am also a former member and Chair of the Ohio 
Board of Voting Machine Examiners. Please know that my 
testimony and comments today reflect my personal opinion and 
viewpoint, and I am not here in any representative or official 
capacity as a member of the Board of Elections. I am a 
nongovernmental witness, but my thoughts, conclusions, and 
statements here today are informed by my experiences in 
election administration as a member of the Cuyahoga County 
Board of Elections, and as an active voter in Ohio.
    Notwithstanding my disclaimer that I don't represent 
anybody here that is also on the board with me, I am very much 
an advocate of voting rights, full enfranchisement of all 
voters, especially in my home county of Cuyahoga County, and 
for robust ballot access, which includes unfettered 
opportunities for early voting in person and vote by mail.
    For those of you that do not know, Cuyahoga County is the 
largest voting district in Ohio. It has the greatest number of 
registered voters, and most recent Cuyahoga County election 
statistics from November 2018 are an indicator of size as 
follows: 903,046 registered voters, 973 precincts, 345 voting 
locations, 59 municipalities. We have 91 employees, and we use 
a significant number of temporary staff in any given election. 
For instance, in the November 2016 election, we hired 321 
temporary staff resulting in a payroll of nearly $1 million. 
Although a smaller election in November, significant temporary 
staff were hired with payroll process totaling more than half a 
million dollars.
    I am going to skip some of those details because I want to 
focus on today what I--on what I believe to be challenges in 
election administration and the importance of early voting. One 
of our--the ongoing challenges faced by our Cuyahoga County 
Board of Elections concerns the ability to set our own rules 
around early voting.
    In Ohio, at least since 2014, a decision was made by the 
Secretary of State, the Ohio legislature, and our trade 
association, that uniformity in the rules governing elections 
administration would be the key organizing principle for the 88 
county boards of elections. Although these county boards in 
Ohio are very different in size, number of voters, staffing, 
and available resources, uniform rules have continued to be 
adopted and continue to be implemented in a manner that limits, 
rather than expands, ballot access.
    While reasonable minds fairly disagree about the extent to 
which uniform rules have hindered voter participation in 
Cuyahoga County, I personally believe that limited early voting 
hours, particularly in large-scale election cycles, run counter 
to basic democratic principles, and has excluded urban poor and 
older voters from the process. Some argue that this issue has 
now been well-settled, a negotiated result has been codified, 
but I view the uniformity principle and practice of having the 
same in-person early voting hours for every county as a missed 
opportunity, both for efficient election administration and 
robust voter participation in the largest voting district in 
Ohio.
    Early voting remains a key tool for efficient election 
administration. The opportunity to cast ballots, other than on 
Election Day, is important for voters and for those of us 
charged with counting those ballots cast. Since 2010, early 
voting numbers represent anywhere from 35 to 40 percent of the 
total votes cast in elections in our county. Early voting has 
had a positive impact and effect on election administration, 
and wait times allows for preliminary processing. It results in 
efficient use of our staff time.
    Because of the importance of early voting, it should be 
noted that a significant challenge to election administration 
exists. That challenges the State limitation codified at Ohio 
revised Code Section 3501.10(c), which prescribes early voting 
only at one location operated by a Board of Elections where 
voting is permitted.
    I am going to have to skip over the statute because I am 
running out of time, but there are pictures that I have asked 
to be shown to you to show the effect of early in-person voting 
and the restriction to one location.
    Chairwoman Fudge. Can you stop? Can you see these screens?
    Ms. Chappell. This is our early voting location in Cuyahoga 
County at East 30th and Euclid Avenue. At this one location, we 
have significant space constraints. Parking is limited, and the 
site is congested. Difficult to manage during heavy periods of 
voting. So we have pictures from 2008 early voting, 2016 
Election Day with lines wrapped around blocks around our 
building. We have 2018 in-house early voting pictures both 
inside of outside of our building.
    Because of the limit in Ohio, and the statutory provision, 
it is a proviso of the code section I mentioned, voting lines 
are long, especially during the Presidential election cycle. So 
there is clearly a substantial challenge in our county with 
this one site limitation for early voting. It is my hope that 
legislative initiatives from our State for vote centers will be 
established, and will move forward. Such centers, of course, 
would need to be identified and located in a manner that is 
equitable, fair, and strategically sited to serve both suburban 
and urban voters.
    In 2018, in the 132nd General Assembly, Representative Dan 
Ramos introduced House Bill 596 that would have allowed 
counties to add additional early voting sites, an additional 
site for every 60,000 registered voters. The bill was referred 
to committee and appears to have died there. Sadly, no new 
legislation on this matter has been introduced. Additional 
opportunities for early voting sites would clearly enhance 
election administration capabilities.
    As a general comment, I wanted to share my observation over 
the years that major impediments to efficient elections 
administration in our county include last minute changes to 
process and voting rules, constant litigation even on expedited 
track, and the politicization of voting rights in the elections 
process.
    So when I look at turnout, we talked about turnout, we can 
provide you with data that just over the years, you just can't 
look at one election. We have got some suggestions for you 
about things you can do. They are in my written testimony. But 
the constant clamoring about rampant voter fraud is 
discouraging voter participation, and my experience over the 
years permits me to say with confidence that claims of voter 
fraud in the elections process are wholly without merit.
    [The statement of Ms. Chappell follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairwoman Fudge. Thank you very much. Mr. Brickner. And we 
would like to try to get the photographs. Mr. Brickner.

                   STATEMENT OF MIKE BRICKNER

    Mr. Brickner. Thank you to Chairwoman Fudge, Ranking Member 
Davis, and Members of the Subcommittee on Elections. My name is 
Mike Brickner, Ohio State Director for All Voting is Local, and 
I submit testimony on the current State of voting rights and 
election administration in Ohio.
    All Voting is Local launched in 2018 as a collaborative 
campaign housed at the leadership conference education fund in 
conjunction with the American Civil Liberties Union Foundation, 
the American Constitution Society, the Campaign Legal Center, 
and the Lawyers Committee for Civil Rights Under Law. We fight 
to protect and expand the right to vote working directly with 
disenfranchised communities to fight for a democracy that works 
for us all.
    Ohioans, particularly people of color, face needless 
barriers to the ballot, including polling places that are 
moved, leaving voters confused and frustrated, and high 
rejection rates of provisional ballots, leaving voters at risk 
of losing their sacred right to vote. As a State and as a 
Nation, we must fight to eliminate these obstacles to voting. 
Ohio must do its part to ensure elections are administered 
freely and fairly, so that all voices are heard.
    Ohio voters increasingly cast their ballots before Election 
Day. Despite its success, Ohio politicians have proposed 
restrictions to early in-person voting. NAACP v. Husted 
challenged the elimination of evening and weekend early in-
person voting hours, and the elimination of same-day voter 
registration during a portion of early voting, stating the cuts 
would discriminate against black voters, and, in fact, that was 
a claim brought under Section 2 of the Voting Rights Act. While 
the Ohio Secretary of State agreed to some evening and weekend 
hours, the settlement agreement is no longer in force, and 
there is no law guaranteeing these hours.
    In January 2019, All Voting is Local analyzed early in-
person voting from the 2016 and 2018 general elections in six 
representative Ohio counties. We found that early in-person 
voting was popular in all areas: urban, rural, and suburban. 
The most popular times to cast a ballot included weekend hours, 
and the week before Election Day. In recent elections, voters 
waited in long lines at early voting locations, not just in 
Cuyahoga County, but in many places across the State.
    Given the success of early in-person voting hours voting 
hours should be formalized in State law and should be expanded 
on the week prior to the election and on weekends. Polling 
place changes cause confusion and frustration for voters, which 
nonpartisan poll monitors noted in Cuyahoga County in 2018. 
Between 2016 and 2018, the county eliminated 41 polling 
locations, and nearly 16 percent of all precincts changed 
location. While polling places were reduced countywide, 
majority black communities were particularly harmed.
    In Cleveland's 17 wards, 8 are majority black, comprising 
from 98 to 72 percent of the population. Of the city's 45 
precincts with polling place changes, the majority, 29, were in 
black majority wards, while only 16 were in black minority 
wards.
    For voters who rely on public transportation, have 
inflexible work schedules, or have a disability, the burden of 
traveling to a new polling location cannot be overstated. At 
one polling location in a black majority Cleveland ward, 
officials told a voter she was at the wrong location. She told 
the poll monitor she was simply going to go home and would not 
vote. The poll monitor encouraged her to call the Board of 
Elections and go to her correct polling location, but the voter 
left frustrated and discouraged. We don't know if she voted.
    At another poll location in a black majority ward here in 
Cleveland, poll monitors reported assisting 40 voters who were 
at the wrong location. Both of these poll locations in these 
examples had changes between 2016 and 2018. State law requires 
that election officials notify voters with a postcard if their 
polling location has changed. Elections officials must do more 
to ensure these changes do not have a disparate impact on 
voters of color. Elections officials should clearly post 
signage outside any poll location with changes.
    In addition, officials should partner with community groups 
to solicit feedback about potential changes, and increase 
outreach of changes are made so that voters are informed.
    Lastly, provisional ballots are often the last resort for 
voters who have problems at the polls. While provisional 
ballots can be beneficial for voters who might otherwise be 
turned away, their use should be minimized. Ohio has one of the 
highest overall number of provisional ballots cast nationwide. 
In 2018 in Franklin County, the rate of provisional ballots 
cast countywide was only 1.84 percent. However, we did some 
analysis, and we have some maps that show this, our analysis 
found that people of color, millennials, and low-income voters 
were significantly more likely to cast a provisional ballot. If 
you--if the maps come on, you will see that there are areas of 
Franklin County; the blue are black voters, the pink are 
millennial voters, and the green are low-income voters. The 
orange dots are where provisional ballots were cast in the 
county. There are certainly people living in those areas 
without shading, but there were hardly any provisional ballots 
cast in those areas. Those are mostly white, affluent areas 
where there are older folks who live there as well.
    So, in our analysis, we found, again, people of color, 
millennials, and low-income voters were more likely to cast a 
provisional ballot. If you look at just three polling locations 
near Ohio State University's campus, nearly one in 10 voters 
had to cast a provisional ballot. At the Ohio Union polling 
location, nearly 65 percent of those provisional ballots cast 
were rejected by the Board of Elections.
    Franklin County's rate of provisional ballot rejection is 
troubling. In the 2018 general election, over one in five 
rejected provisional ballots statewide came from Franklin 
County. Thank you for the opportunity to testify, and I am 
happy to answer any questions you may have.
    [The statement of Mr. Brickner follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairwoman Fudge. I thank you all. We will now begin our 
questioning. Mr. Butterfield, you are recognized.
    Mr. Butterfield. Thank you, Madam Chairwoman, and I won't 
consume the full five minutes. I have to head to the airport. 
Thank you for your testimony. It has been very insightful. I 
mentioned to the other panel the question about Section 2 
litigation. Counsel, do you know if there has been any Section 
2 litigation in Ohio?
    Ms. Awan. Yes, and I think Mr. Brickner spoke to this as 
well. The challenges to the State's elimination of the early--
same-day registration period and cuts to early voting brought 
in 2014, and there was some litigation brought later on on some 
of the----
    Mr. Butterfield. Under the Voting Rights Act?
    Ms. Awan [continuing]. Were brought under Section 2 of the 
Voting Rights Act, as well as the Equal Protection Clause. So 
there were challenges related to the disparate impact that 
those cuts had on people, based on the basis of race as well as 
the impacts that it would have on individuals.
    Mr. Butterfield. So just one lawsuit that you can recall?
    Ms. Awan. Yes. Well, there were at least two lawsuits 
addressing the cuts to early voting and then----
    Mr. Butterfield. What about at the local level?
    Ms. Awan. That I am not entirely sure of.
    Mr. Butterfield. Are you aware of the costs associated with 
Section 2 litigation? I know in my State of North Carolina, it 
is very expensive. I did VRA litigation back in the 1980s, and 
even back then, it was several hundred thousand dollars, and I 
suspect now it probably has exceeded $1 million.
    Ms. Awan. I mean, so I cannot speak to the actual numbers, 
I would say that I would assume that the cost would be quite 
high based on----
    Mr. Butterfield. But you stipulate it is very expensive?
    Ms. Awan. Yes, and I would say, too, that they fund other 
voting rights litigation that I have been involved in that 
doesn't require expert reports to the extent that Section 2 
litigation does. You can, just going through the preliminary 
injunction process and some of the depositions, be ranging into 
the millions, right, or so----
    Mr. Butterfield. Thank you. Thank you. Ms. Chappell, does 
changing the laws constantly affect the ability of the Board of 
Elections to effectively administer the elections?
    Ms. Chappell. Absolutely. You know, in Cuyahoga County, our 
Board of Election is the subject of, or involved in a number of 
suits, and it impacts even when the suit is filed in an 
expedited track, it impacts our ability to prepare for the 
election. It impacts staff time. And it is just the uncertainty 
about knowing are we putting something on the ballot? Are we 
taking something on a ballot? Do we have to have the messaging 
needed at the polling location to make sure people are aware of 
what the change is? So the litigation absolutely impacts us in 
an adverse way.
    Mr. Butterfield. Thank you. Thank all of you. I yield back.
    Chairwoman Fudge. Mr. Joyce?
    Mr. Joyce. Thank you. Ms. Chappell, what would you 
recommend is a cure for that problem? I understand that a lot 
of times when there is potential--there is lawsuits about the 
ballots, you are already stuck, the administration of picking--
purchasing ballots and then potential to repurchase ballots 
because if something goes on or goes off. Do you have a 
recommendation of what should be a time set certain for all 
litigation to be filed by to allow boards to have more time to 
do that?
    Ms. Chappell. Well, yes, I mean, I thank you for the 
question, and I do think one of the ways in which we can try to 
reduce some of the litigation is to do exactly what this 
Committee is doing, and come to some real understanding about 
what is happening, what is triggering the litigation. You know, 
looking at elections, not just in a vacuum, one election at one 
time, to reach a conclusion about what it is saying, but over 
time, looking at what the patterns are, and coming to some 
basic fundamental conclusions which resonate, I think, for most 
voters that voting is so critical and intrinsic to our 
democracy that you don't forfeit your right to vote, you don't 
lose your right to vote, and there ought to be a way to balance 
the need to maintain voting records with the need to ensure 
that there are opportunities for full access to the ballot. So, 
I mean, if we hit some of these issues, I think the 
litigation--the cost and litigation itself will be driven down.
    Mr. Joyce. Thank you. Another one that is not necessarily 
right on point with what we are discussing today, but since you 
have the expertise here in Ohio regarding it, I understand the 
Secretary of State is working with the counties to purchase, or 
procure new voting machines for everyone. I understand from my 
time working as a prosecutor that the system we had in Geauga 
County, for example, is ES&S, Election Software and Systems, I 
believe. And to allow fixes the day of elections, they had a 
back door that was set up so that people could come into the 
computer, come into the scanner and do some changes. What do 
you see, and what needs to be done to make sure that no one has 
the ability to hack those voting machines?
    Ms. Chappell. Well, that is a great question. We also have 
ES&S as our vendor here in Cuyahoga County. I think one thing 
at the Federal level you can do is really put some teeth into 
the EAC, really look to make sure that the testing labs that 
are used because there aren't that many that there are enough 
that they are testing the equipment to make sure that there is 
no way to hack in. Most of our equipment is not connected to 
the internet. There has been extensive cybersecurity intrusive 
testing, and we have been on the forefront of making sure--at 
least making the effort to ensure that we are not hacked, but 
there is a lot around cybersecurity that needs to be done, and 
so, yes, there has been money allocated to allow us to continue 
that effort.
    Mr. Joyce. And you are going to be part of that study to 
make sure it doesn't happen to us?
    Ms. Chappell. I would be happy to be a part of it, 
absolutely.
    Mr. Joyce. I yield back.
    Chairwoman Fudge. Ms. Kaptur.
    Ms. Kaptur. It is on.
    Chairwoman Fudge. It is on automatically. It is on. Just 
start talking. You turned it off, I think.
    Ms. Kaptur. There. All right. Thank you very much. I wanted 
to ask a question about provisional ballots. And, first of all, 
thank you all for what you are doing. What you are doing is so 
important to the country and to this State. You went over the 
data very quickly, Mr. Brickner, but what would you say to the 
people gathered today about what Ohio could do to fix the 
problems with provisional ballots? Why do we have so many? Why 
are so many rejected, many on the basis of signature? Why is 
that? What is going on in this State with provisional ballots? 
And I can tell you from the counties that I represent, and I 
represent parts of five due to very sinister gerrymandering. I 
could say plenty. But this is mathematical. And it isn't just 
Ohio. And it is the reason that we have such trouble in 
Congress, because the system defaults to extremes, and both 
parties have their share of those members now who cannot reach 
compromise, and it is mathematical.
    So I want to ask you, in terms of provisional ballots, talk 
about the big picture of provisional ballots in this State. I 
have seen so many voters misdirected at the precinct level. We 
need greater training of our booth workers, and they need to--
it has to happen at the local level, at the most local of 
levels by wards. But I want to ask you, on the provisional 
ballot issue, get us inside that system, tell us a little bit 
about what is going on in this State?
    Mr. Brickner. Absolutely. So if you look at provisional 
ballots, again, Ohio is an outlier with other States. We cast 
far too many provisional ballots and far too many people of 
color particularly cast provisional ballots. With rejections 
and why people cast provisional ballots, the number one reason 
why a person has to cast a provisional ballot in the State is 
because they are not in the poll book, and that has to do, I 
think, with our outdated voter registration system. If you look 
at the fact that we don't have automatic ways to update your 
voter registration or same-day voter registration that would 
allow somebody who recently moved into the State, or is a 
student, to be able to go on Election Day, or during the early 
voting period, to register to vote, that becomes a major 
barrier. Most people don't think about voting 35 days before 
the election, or in excess of that. And so, you know, we tend 
to leave things up to the last minute. Having an automatic 
system and same-day voter registration would help that.
    I think to your other points----
    Ms. Kaptur. Is Ohio--I am going to interrupt you, sir, and 
I am going to ask Ms. Chappell also to comment. Is Ohio 
effectively applying for and using the election assistance 
dollars at the Federal level to help solve some of these 
issues?
    Ms. Chappell. Well, let me just say, thank you for the 
question. The implementation of electronic poll books is going 
to be helpful, we believe, in reducing the number of 
provisional ballots cast. Because the e-poll books are able to 
when the ID is swiped, to tell the voter you are in the wrong 
location, and not only you are in the wrong location, this is 
the place you need to be, so it will direct the voter to the 
correct location. The provisional ballots, unfortunately, are a 
necessary evil because I would rather have somebody vote 
provisionally than not vote at all. We do have a robust way of 
reconciling those votes. We have seen the numbers come down. We 
are always looking at ways to try to figure out what is 
happening with the numbers. And, you know, there is a disparate 
impact, but we have got--we have got to continue to have it 
because we need people to vote.
    Ms. Kaptur. There was one other question this afternoon, or 
this morning, regarding hacking into our election systems, and 
I just want to say that in reading the Mueller Report, I can 
assure the American people, the hacking into our election 
systems was significant and continues. And here in Ohio, for 
those responsible, it is very important for us to think about 
how we gird ourselves against what this election year and the 
next is going to yield and how we really armor ourselves 
against hacking. And I heard what you said about not being 
connected to the internet, but we need really good oversight. 
Do you think our State has the capability to do that well, and 
our counties?
    Ms. Chappell. I think we are starting to. Under our 
Secretary of State LaRose, we have. There has been dollars 
allocated for cybersecurity measures for--each county in Ohio 
was required to undergo to take advantage actually of a 
cybersecurity consultant to begin some of that process. I think 
there is a lot more work to be done there though, but steps 
have been taken.
    Ms. Kaptur. Thank you very much. Thank you, Madam 
Chairwoman.
    Chairwoman Fudge. Mr. Gonzalez.
    Mr. Gonzalez. Thank you. Thank you, witnesses, for being 
here, and for your participation. Ms. Chappell, I want to read 
something from your written testimony that I don't think you 
were able to get to and just kind of cosign on that. I am just 
going to quote you here. It says, ``I was pleased that just a 
few months ago, our new Ohio Secretary of State and chief 
elections officer, Frank LaRose, stated that voter fraud was 
rare. We need more truthful public statements like this.'' Amen 
to that. Completely agree. Thank you for stating that.
    I will give another kind of cosign, Mr. Raskin earlier, and 
we talked a lot about the partisan gerrymandering that takes 
place. I am thrilled that we passed, in Ohio, the law that we 
did on our last election cycle to hopefully stop that. I think 
our democracy functions far better when the districts make more 
sense candidly. But let me get to some questions, and also, 
obviously, Ms. Chappell, I want to thank you for all the 
service on the BOE. My wife voted in Ohio for the first few 
times. She is new to Ohio, and the process was seamless, and I 
know that that was, in large part, due to your leadership and 
Pat McDonald's leadership and everybody at the board, so I 
really appreciate all the work you do.
    Ms. Chappell. Thank you. Thank you for that.
    Mr. Gonzalez. My question, and I only have one, is one of 
the main reasons our bipartisan county boards of elections 
eliminate precincts and polling locations is, in part, due to 
the fact that it has become harder to find people willing to 
work as precinct election officials on Election Day. That is 
partly due to the fact that pay for this vital service is very 
low, and because county boards of elections are unable to raise 
the pay threshold due to various administrative challenges. For 
example, if a PEO makes more than $600 in a year, even if they 
are working three or four elections, the Board of Election 
would have to begin issuing 1099s or W-2s for these workers. 
There is also the issue of OPRS retirees being unable to work 
part-time at the board or as booth workers because of the U.S. 
Treasury rule resulting from the ACA.
    So I guess my question would be: first, do you support 
studying ways to remove barriers at the Federal level to make 
hiring part-time election workers easier, and then what would 
those be? Help us understand that?
    Ms. Chappell. Yes, no, I do appreciate the question. We 
have--we hire a huge group of individuals to work the polls. I 
mean, the number is staggering. We have to do it. One of the 
suggestions, I actually, in my written testimony, had a few 
suggestions for you guys. One would be to let's move the 
marathon day of voting to the weekend. It would help us recruit 
poll workers. People would get relief time. We would have two 
days to administer the election instead of one crazy, long day. 
And I think it would--we would be able to improve the numbers 
and the quality of the poll workers that we get for that kind 
of weekend voting. Again, vote centers would allow us, I think, 
to do that and have a major effect on poll workers.
    Mr. Gonzalez. Great. Anything else on just kind of the 
availability piece of finding poll workers? I think that is a 
reasonable suggestion we should look at, but anything else?
    Ms. Chappell. We have had a pretty robust program over the 
years of, you know, engaging our poll workers, training our 
poll workers. We have a program that allows for repeat folks to 
work with us so we don't lose their expertise. I think there 
have to be--one of my recommendations, you know, we should have 
Election Day be a national holiday and people should be off 
from work and really allowed an opportunity to exercise the 
franchise. We would see greater numbers of poll workers if we 
do something like that.
    Mr. Gonzalez. Thank you. And I will yield back the balance 
of my time.
    Chairwoman Fudge. Ms. Sewell.
    Ms. Sewell. I thank you, Madam Chairwoman. I also want to 
thank this panelist for providing a lot of the statistics and 
facts about why it is that it is so important that we--maybe 
that is the question I should ask. Is it important that we 
restore the full protections of the Voting Rights Act of 1965? 
I think that there are--I started my questioning in the last 
panel about myths, and one of the myths that I think that 
people often espouse is that voter maintenance, voter roll 
maintenance, which is very important, don't get me wrong, I 
think that that is important, but is it more important that we 
purge people than he encourage people to go and vote?
    I mean, to say that we are--voter maintenance is about 
cost, you know, we are trying to lower the cost of 
administering elections. At the end of the day, though, isn't 
our job also to promote democracy? And isn't democracy about 
promoting access to the ballot box and making sure that we are 
encouraging? Has the Voting Rights Act of 1965 outlived its 
time? That is really, I guess, the question I would ask you, 
Mr. Brickner.
    Mr. Brickner. Absolutely not. We are, you know, in full 
support of the VRAA and having a new formula for Section 5 of 
the Voting Rights Act. And I think your point around data 
collection, really understanding the problems, is a really 
important one to remember when we are thinking about the Voting 
Rights Act, because, certainly, under the formulas that are 
being proposed, they are very flexible, and it is important for 
us to collect data to show what is really happening in a 
jurisdiction to see if pre-clearance is needed in that 
jurisdiction.
    Ms. Sewell. And would you say, given the fact that you have 
given us a lot of data, both in your written testimony but also 
in your oral, do you think that the data shows that we need to 
figure out a formula to put back the full protections of the 
Voting Rights Act?
    Mr. Brickner. Absolutely, and that we need a system to also 
look--keep the data for the entire country and for longer 
periods of time. We as a nonprofit organization put this 
together. I think that the government has a role in keeping 
that data and analyzing those things.
    Ms. Sewell. Well, let's go along that same line of 
questioning. So, Ms. Chappell, first of all, thank you so much 
for your years of service to the board of registrars. You do an 
admiral job that is critically important in protecting our 
democracy.
    Does the Federal Government have a role to play? So often I 
hear that the Federal Government is setting up barriers. But I 
think that many of us, especially those of us who come from 
States like Alabama that were part of the former confederacy, 
that literally I wouldn't be a Member of Congress let alone 
Alabama's first black Congresswoman had we not gotten the right 
to vote and civil rights, and last time I checked, it was the 
Federal Government and the Federal court systems that actually 
gave us that right.
    We are coequal branches of government, just like the 
judiciary, and we have a role to play in making sure that we 
promote this democracy. So I guess my question to you is, when 
you think about the many barriers and impediments to what you 
are doing in your role, is the Federal Government the biggest 
impediment?
    Ms. Chappell. No. Thank God for the Supremacy Clause and 
thank God for Federal preemption. I really think you guys have 
got to really give some--and what you are doing today is 
important to oversee what is happening at the State level. You 
know, we have to get--you know, numbers can be made to say 
anything, and we can parse out and numbers are important and 
the data collection is important.
    Ms. Sewell. They are critically important.
    Ms. Chappell. The data collection is important. But it has 
got to be overlaid with some basic fundamental principles that 
the vote cannot be forfeit. You cannot forfeit your vote. How 
can you forfeit your vote? So I think we have to have the 
Federal Government absolutely involved.
    In my testimony, written testimony I actually gave you a 
specific thing you might consider, authorizing a subsidy 
perhaps to the U.S. Post Office that would cover the cost of 
processing and delivery of absentee ballots.
    Ms. Sewell. Absentee ballots. I like that.
    Ms. Chappell. And, you know, I mean, we have got a lot of 
ideas here at our Cuyahoga County Board of Elections, but we do 
think the role of the Federal Government and your role is key 
to allowing full and unfettered access to the ballot.
    Ms. Sewell. So in closing, I just want to say I had the 
great opportunity of being the Member of Congress representing 
Alabama during the 50th anniversary of the Selma to Montgomery 
march. And I had as my special guest Ms. Amelia Boynton 
Robinson at the State of the Union in 2015. She was the oldest 
living--at the time--survivor of being bludgeoned on that 
bridge in Selma, Alabama, in 1965. She was at the time 103 
years old.
    And I had the opportunity to meet with her and for her to 
meet President Barack Obama in this small little room off of 
the Capitol before he gave his speech. And to a person--
everyone came in and kneeled down where she was sitting in her 
wheelchair and said, ``Ms. Boynton, you know, we are where we 
are, Ms. Amelia, because of you and your sacrifices.'' ``We 
stand on your shoulders,'' is what they kept saying.
    So by the time President Obama came in, all of his Cabinet 
members had all said the same thing, we stand on your 
shoulders, we stand on your shoulders. When Eric Holder said 
it, she said, get off my shoulders, all of you. Do your own 
work, is what she said. There is plenty of work to be done and 
we must do our own work.
    And I just want to remind this panel of our constitutional 
responsibility. We have to do our own work. Progress is 
elusive. Progress never, ever, ever stays the same. We have to 
fight to hold on to the progress that we have made in this 
country and advance it for future generations. And I just want 
to make sure--I know that this panel has very important work 
that has to be done, and I look forward to seeing us continue 
to do that and do our constitutional duty.
    Thank you for the opportunity.
    Chairwoman Fudge. Mr. Davis for his closing comments as 
well as questions, if you have some.
    Mr. Davis. Thank you, Madam Chairwoman.
    And thank you again to the witnesses. I appreciate your 
attendance here.
    Quick question, any of you can answer it or all of you. 
Now, since the Supreme Court's 2013 decision on Shelby County, 
have you noticed any enforcement trends related to Sections 2 
and 3?
    Ms. Awan. I mean, I can't cite numbers, but what I would 
say is we have seen an increase in the number of Section 2 
Voting Rights Act lawsuits. Prior to, you know, the States, 
especially where there was previously preclearance in place----
    Mr. Davis. So there are an increase in lawsuits, but you 
are not seeing any enforcement actions?
    Ms. Sewell. Because enforcement law is not there.
    Ms. Awan. Well, and, I mean, some of these Section 2 
lawsuits have been successful requiring there to be changes in 
the law, right, as a result of that. I mean, prior to Shelby 
County, there were very few vote denial cases brought, right. 
Everything was under the vote dilution section of Section 2 of 
the VRA almost where it was addressing gerrymandering.
    But now we are seeing things brought about voter ID, 
elimination of same-day registration, and early voting 
opportunities, elimination of preregistration. So, you know, I 
think that we have seen an uptick in the need for that.
    Mr. Davis. Anybody else?
    Ms. Chappell. I don't have any data to be able to be 
responsive to that.
    Mr. Davis. Okay. Mr. Brickner.
    Mr. Brickner. I would agree with Ms. Awan.
    Mr. Davis. Okay. So number one, thanks again for being 
here. This has been a great opportunity to hear from our 
colleagues. This is a great opportunity to understand what 
happens in a State that is not our own.
    You know, as somebody who is from Illinois, as somebody who 
has a--coincidentally four public universities in his district, 
I obviously don't know how that happened with the Democratic 
super majorities and a Democratic governor in 2011, but that is 
clearly a gerrymandered district.
    The gerrymandering issues that are talked about here at 
this dais happen, as Ms. Kaptur said, in a bipartisan manner. 
And I certainly hope that I can count on the support of my 
colleagues as we move into this next set of redistricting to do 
what we can to stop a practice that shouldn't happen anywhere, 
let alone in Illinois or Ohio.
    But I want to say thank you to both panels, because the 
message I got out of this hearing today too is that there are a 
lot of folks that are happy with what Secretary of State LaRose 
is doing in this State right now.
    You know, there is a process of voter maintenance that he 
and his predecessors have had to do to follow the law, to 
follow decisions made by our Federal Government and our Federal 
courts. And the process right now, from my data, lasts 4 years. 
So thank you for recognizing the efforts of Secretary LaRose 
because I think that clearly shows this hearing has a very 
bipartisan result, and that is exactly what I mentioned in my 
opening comments.
    Now, I do want to say I am a little confused by Ms. 
Chappell and Mr. Brickner. You had some issues about--you 
talked about how the State of Ohio has early voting everywhere, 
the county offices, same time, same days, that is strictly--it 
is the same everywhere at the same time, right?
    Ms. Chappell. Throughout the State.
    Mr. Davis. Throughout the State.
    Ms. Chappell. That is correct.
    Mr. Davis. I was in North Dakota a week and a half ago, 
many of the witnesses said that since there wasn't such strict 
adherence to times and dates, that that was the reason why 
voters were somehow being suppressed from voting. Which is it?
    Mr. Brickner. I can answer that. So I think that with 
uniformity and equal protection, which was why there were 
uniform hours put in place years ago by former Secretary 
Husted, I think that with what Ms. Chappell said, it was more 
of a race to the bottom was how equal protection worked. It 
wasn't about lifting up all of the counties. We instead took 
away some of the evening and weekend hours.
    And I think that uniformity actually has some benefits. If 
we are talking about public education for voters, it can become 
confusing if there are more hours in one county and fewer hours 
in an adjoining county just to put that out on television or 
newspaper----
    Mr. Davis. I appreciate that. I wanted to make sure that we 
got it clarified as we----
    Mr. Brickner. But I think we need to raise the bar too when 
we talk about expanding evening and weekend hours.
    Mr. Davis. Well, thank you. And thanks for that 
clarification.
    And there is--one comment that my colleague made earlier, 
numbers are important. We had a lot of discussion about 
population. The population of Ohio is growing less than 1 
percent right now. And we saw an increase in voter turnout of 
15 percent. It seems like folks here in Ohio, you are doing 
something right.
    And I want to commend you and I want to commend everybody 
here for working hard to ensure that that happens and encourage 
you and encourage everyone to continue to work with our 
election officials to make sure that trend continues to go up. 
Work hard to make sure there is an accurate count with the 
Senate. Work hard to make sure people get a chance to cast 
their vote because that is the backbone of a free society.
    And I am glad to be a part of this Subcommittee. I am glad 
to be here in Ms. Fudge's, Ms. Kaptur's, and Mr. Joyce's, and 
Mr. Gonzalez's almost hometowns, in some cases. But this is an 
opportunity for us to learn. And let me tell you something, I 
have learned. And I appreciate your testimony, appreciate the 
time, and I appreciate Chairwoman Fudge's leadership.
    Chairwoman Fudge. Thank you.
    I want to thank the witnesses and just say a couple of 
things. One is, I clearly understand that we follow the law, 
but every law is not just. Martin Luther King told us that 
years and years ago, that every law is not just, because it was 
against the law for us to vote. It was not a just law, but it 
was the law.
    So I think that sometimes we have to look at what is right 
and what is fair and what is just. And just because it is the 
law does not make it right.
    So we changed the country, not through the law, really 
through the Supreme Court. It was the Supreme Court that 
determined we should be able to vote. The same thing when black 
people could not serve in certain parts of the military. It was 
not the legislature. It was not the law. It was the courts.
    And so sometimes we have to look at them and say, it may be 
what is written, it doesn't mean that it is right. And so, you 
know, there was a time we had to sit at the back of the bus. It 
wasn't right, but it was the law. So sometimes we can't follow 
the law because it is not just.
    Certainly, uniformity is not equity. It is a lot harder for 
1 million people to vote at one polling place between the hours 
of 9 and 5 than it is for 5,000, and so it is not just. It may 
be what is on paper, but it is not just.
    I want to thank all of our witnesses for being here today 
for their testimony. We may have some additional questions, and 
we would ask that you would respond to us in writing and we 
will put it in the record.
    I want to thank Tri-C for always being so kind and having 
their doors open to us whenever we need them, especially Claire 
Rosacco, and all of those who made this happen.
    I want to thank my colleagues for being here. And I think 
that it is important for you all to see us together as opposed 
to seeing what the television says. We disagree on many, many 
things. There are very few things I agree with Rodney on, but I 
like Rodney. Rodney is my friend. And so we have relationships. 
So don't ever believe that we are enemies. We are not.
    And I am just so pleased that Rodney has taken the time to 
come here, because a lot of people thought he wouldn't, and so 
I thank you for that from the very bottom of my heart.
    We disagree on how to get there, but we all love our 
country. And I know that we are here to try to fix something 
that was changed. We are here to fix the Voting Rights Act, and 
I believe that we are going to do it. I have confidence in my 
colleagues that they are willing to work with me. I know these 
are. And so we are going to move this process forward.
    I want to thank our staffs. Like I said, we--you see a lot 
of things here, but all I really do is come and sit down. Our 
staffs do this work, and I want to thank them for the work they 
do.
    And with that, the Subcommittee stands adjourned without 
objection.
    [Whereupon, at 12:22 p.m., the Subcommittee was adjourned.]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
